No. ___
IN THE

Supreme Court of the United States
————
THE CITY OF NEW YORK, et al.,
Petitioners,

v.
JARRETT FROST,

Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
GEORGIA M. PESTANA
Acting Corporation Counsel
of the City of New York
RICHARD DEARING*
SCOTT SHORR
JESSE A. TOWNSEND
100 Church Street
New York, NY 10007
(212) 356-2500
rdearing@law.nyc.gov
* Counsel of Record

Counsel for Petitioners

June 21, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D.C. 20002

QUESTION PRESENTED
In Manuel v. City of Joliet, 137 S. Ct. 911 (2017), this
Court recognized that the Fourth Amendment, not the
Due Process Clause, governs claims challenging
pretrial detentions based on allegations of evidence
fabrication. Here, however, despite rejecting a § 1983
plaintiff’s Fourth Amendment challenge to his pretrial
detention because it was supported by probable cause,
independent of the disputed evidence, a split panel of
the U.S. Court of Appeals for the Second Circuit
permitted him to pursue a due process-based claim
challenging the same lawfully supported detention.
The question presented is:
Where a § 1983 plaintiff alleges that his pretrial
detention was influenced by fabricated evidence, and
the existence of probable cause independent of the
challenged evidence defeats his Fourth Amendment
claim, may he still pursue a due process-based claim
based on alleged use of the same challenged evidence
in securing the same pretrial detention?

(i)

ii
PARTIES TO THE PROCEEDING
Petitioners—The City of New York, Detective
Michael Lopuzzo, Detective Richard Spennicchia, and
Detective Joseph O’Neil—were defendants-appellees
in the court of appeals.
Respondent Jarrett Frost was
appellant in the court of appeals.

the

plaintiff-

Detectives John Doe #1-4, Correction Officers John
Doe #1-5, and Correction Officer Thomas were
defendants in the district court and were not appellants or appellees in the court of appeals. The following
parties were defendants-appellees in the court of
appeals, but have no interest in the question presented
here: New York City Police Department, New York
City Department of Correction, District Attorney
Robert T. Johnson, District Attorney Robert Hertz,
Correction Officer Torres, Correction Officer Soria,
Correction Officer Carty, Correction Officer Souffrant,
Correction Officer Tatulli, Correction Officer Captain
McDuffie, Correction Officer Previllon, Correction
Officer Gonzalez, Correction Officer Captain Ryan,
Correction Officer Young, Correction Officer
McLaughlin, Correction Officer Barksdale, Correction
Officer Corker, Correction Officer Sanchez, Correction
Officer Hill, Correction Officer Captain Clayton
Jemmott, and Correction Officer Jaye Joye.

iii
RELATED PROCEEDINGS
United States District Court (S.D.N.Y.):
Frost v. City of New York, No. 15-cv-4843
(Mar. 28, 2019) (judgment)
United States Court of Appeals (2d Cir.):
Frost v. New York City Police Department,
19-1163 (Nov. 12, 2020) (judgment); (Jan. 21,
2021) (order denying petition for rehearing
and rehearing en banc)

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDING ....................

ii

RELATED PROCEEDINGS ...............................

iii

TABLE OF AUTHORITIES ................................

vii

INTRODUCTION ................................................

1

OPINIONS BELOW ............................................

3

JURISDICTION ..................................................

3

CONSTITUTIONAL PROVISIONS
INVOLVED ......................................................

3

STATEMENT ......................................................

4

I. THE MURDER OF MAVON CHAPMAN,
FOR WHICH FROST WAS CHARGED
AND ACQUITTED. ..................................

4

II. THIS § 1983 LAWSUIT ............................

6

A. The district court’s grant of summary
judgment ..............................................

6

B. The court of appeals’ partial reversal
of the district court ..............................

8

REASONS TO GRANT THE PETITION ...........

12

I. THE DECISION BELOW CONFLICTS
WITH THIS COURT’S DECISIONS. ......

12

A. The two-judge majority misinterpreted
Manuel v. City of Joliet. ......................

12

B. The decision below ignores this
Court’s admonitions about expanding
the scope of the Due Process Clause. ..

13

(v)

vi
TABLE OF CONTENTS—Continued
Page
II. AFTER MANUEL, THE CIRCUITS
REMAIN DEEPLY SPLIT OVER
WHETHER THE DUE PROCESS
CLAUSE
GOVERNS
PRETRIAL
DETENTIONS. .........................................

17

A. Four circuits now reject, in at least
some circumstances, due process
challenges to the pretrial use of
allegedly fabricated evidence. .............

17

B. Another five circuits have recognized
due process challenges to the pretrial
use of fabricated evidence. ..................

20

III. THIS CASE IS AN IDEAL VEHICLE
FOR CONSIDERING THE DIVISION
OF LABOR BETWEEN THE FOURTH
AMENDMENT AND THE DUE PROCESS CLAUSE. ........................................

23

IV. THE QUESTION PRESENTED IS
IMPORTANT. ...........................................

24

CONCLUSION ....................................................

30

vii
TABLE OF CONTENTS—Continued
APPENDIX

Page

APPENDIX A: Opinion of the United States
Court of Appeals for the Second Circuit,
Filed November 12, 2020 ...............................

1a

APPENDIX B: Opinion of the United States
District Court for the Southern District of
New York, Filed March 27, 2019 ...................

58a

APPENDIX C: Order of the United States
Court of Appeals for the Second Circuit,
Filed January 21, 2021 ..................................

88a

viii
TABLE OF AUTHORITIES
CASES

Page(s)

Albright v. Oliver,
510 U.S. 266 (1994) ............................. 15, 16, 26
Appling v. City of New York,
No. 18-cv-5486, 2021 U.S. Dist. LEXIS
34060 (E.D.N.Y. Feb. 23, 2021) ................

26

Ashley v. City of New York,
992 F.3d 128 (2d Cir. 2021) ...................... 25, 26
Black v. Montgomery County,
835 F.3d 358 (3d Cir. 2016) ...................... 17, 18
Buari v. City of New York,
No. 18-cv-12299, 2021 U.S. Dist. LEXIS
61273 (S.D.N.Y. Mar. 30, 2021)................

26

Cole v. Carson,
802 F.3d 752 (5th Cir. 2015) ..................... 17, 21
Cole v. Carson,
935 F.3d 444 (5th Cir. 2019) .....................

21

County of Sacramento v. Lewis,
523 U.S. 833 (1998) ...................................

10

Delade v. Cargan,
972 F.3d 207 (3d Cir. 2020) ......................

20

Devereaux v. Abbey,
263 F.3d 1070 (9th Cir. 2001) ...................

22

Dufort v. City of New York,
874 F.3d 338 (2d Cir. 2017) ......................

9

Evans v. Chalmers,
703 F.3d 636 (4th Cir. 2012) .....................

18

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Franks v. Delaware,
438 U.S. 154 (1978) ...................................

28

Frost v. City of New York,
980 F.3d 231 (2020) .................................passim
Frost v. City of New York,
No. 15-cv-4843,
2019 U.S. Dist. LEXIS 52207
(S.D.N.Y. Mar. 27, 2019) ...................... 3, 6, 7, 8
Garnett v. Undercover Officer C0039,
838 F.3d 265 (2d Cir. 2016) .................. 9, 14, 26
Gerstein v. Pugh,
420 U.S. 103 (1975) ................................... 14, 16
Graham v. Connor,
490 U.S. 386 (1989) ....................... 10, 14, 15, 16
Gutierrez v. City of New York,
No. 18-cv-3621, 2021 U.S. Dist. LEXIS
33013 (E.D.N.Y. Feb. 22, 2021) ................

26

Hartman v. Moore,
547 U.S. 250 (2006) ...................................

28

Johnson v. McCarver,
942 F.3d 405 (8th Cir. 2019) ..................... 19, 20
Jordan v. Town of Waldoboro,
943 F.3d 532 (1st Cir. 2019) .....................

28

Klen v. City of Loveland,
661 F.3d 498 (10th Cir. 2011) ...................

22

Lewis v. City of Chicago,
914 F.3d 472 (7th Cir. 2019) ..................... 18, 19

x
TABLE OF AUTHORITIES—Continued
Page(s)
Manganiello v. City of New York,
612 F.3d 149 (2d Cir. 2010) ......................

8

Manuel v. City of Joliet,
137 S. Ct. 911 (2017) ................................passim
Massey v. Ojaniit,
759 F.3d 343 (4th Cir. 2014) .....................

18

McIntosh v. City of New York,
722 F. App’x 42 (2d Cir. 2018) ..................

14

Medina v. City of New York,
No. 20-cv-0797, 2021 U.S. Dist. LEXIS
82339 (S.D.N.Y. Apr. 29, 2021) ................

26

Moran v. Clarke,
296 F.3d 638 (8th Cir. 2002) ............... 18, 19, 20
Nieves v. Bartlett,
139 S. Ct. 1715 (2019) ...............................

28

Norales v. Acevedo,
No. 20-cv-2044, 2021 U.S. Dist. LEXIS
34361 (S.D.N.Y. Feb. 24, 2021) ................

26

Ricciuti v. New York City Transit Auth.,
124 F.3d 123 (2d Cir. 1997) .................. 9, 21, 26
Shimomura v. Carlson,
811 F.3d 349 (10th Cir. 2015) ...................

22

Spencer v. Peters,
857 F.3d 789 (9th Cir. 2017) .....................

22

United States v. Lanier,
520 U.S. 259 (1997) ................................... 10, 13

xi
TABLE OF AUTHORITIES—Continued
Page(s)
Walsh v. City of New York,
No. 19-cv-9238, 2021 U.S. Dist. LEXIS
62982 (S.D.N.Y. Mar. 31, 2021)................

26

Weiland v. Palm Beach County Sheriff’s
Office, 792 F.3d 1313 (11th Cir. 2015) ..... 22-23
Whitlock v. Brueggemann,
682 F.3d 567 (7th Cir. 2012) ..................... 18, 29
Zahrey v. Coffey,
221 F.3d 342 (2d Cir. 2000) ......................

14

CONSTITUTION
U.S. Const. amend. IV .................................passim
U.S. Const. amend. XIV, § 1 .......................passim
STATUTES
28 U.S.C. § 1254(1) .......................................

3

42 U.S.C. § 1983 ..........................................passim
N.Y. Penal Law § 195.00 ..............................

29

N.Y. Penal Law § 210.45 ..............................

29

INTRODUCTION
While investigating a murder, New York City police
officers obtained a statement from a witness who
identified respondent Jarrett Frost as the person
who shot the victim. This identification was just one
item in a constellation of evidence linking Frost to
the crimes for which he was later charged. Without
ever hearing the identification testimony, a criminal
jury acquitted Frost. He later brought this § 1983
action against the defendant police officers and the
City of New York, alleging that his pretrial detention
was illegal because the police had extracted a false
identification from the witness.
Frost asserted two different constitutional claims
against the police officers for the same alleged conduct
and injury, arguing that his pretrial detention violated
both the Fourth Amendment and the Due Process
Clause due to alleged fabrication of evidence. On
appeal from a district court order granting summary
judgment to the defendants, the Second Circuit held
that there was probable cause for Frost’s detention
even without the challenged identification, and so his
Fourth Amendment claim could not go forward. But,
over a dissent, the panel majority held that Frost could
pursue a due process claim based on the identical facts.
In allowing the due process claim to proceed, the
majority showed little regard for Manuel v. City of
Joliet, 137 S. Ct. 911 (2017), where this Court recognized that the Fourth Amendment, not the Due Process Clause, governs a claim that a pretrial detention
was based on fabricated evidence. At the same time,
the majority disregarded this Court’s repeated admonitions about substantive due process: it should not be
invoked where a more specific constitutional provision, such as the Fourth Amendment, applies.

2
Not only did the panel majority brush aside this
Court’s precedent, it also cemented a circuit split on
this exact issue. Even before Manuel, the circuits were
split on whether the Due Process Clause or the Fourth
Amendment (or both) governs fabrication-of-evidence
claims in the pretrial context. Since Manuel, several
circuits have come to recognize that plaintiffs may
assert such claims only under the Fourth Amendment.
In contrast, the Second Circuit’s decision below joins a
post-Manuel decision from the en banc Fifth Circuit in
adhering to the view that plaintiffs may pursue such
claims under the Due Process Clause. In doing so,
neither court persuasively explained how its decision
was consistent with Manuel.
Practically, the decision below not only furthers a
division among the circuits, but deepens the ongoing
uncertainty about which standards govern the work
of investigatory officials. And even where a pretrial
detention is unquestionably supported by probable
cause, the Second Circuit’s approach permits thinly
supported claims of fabricated evidence to proceed to
trial against those officials.
The Second Circuit’s decision ignores Manuel. It
ignores this Court’s warning against undue expansions of the Due Process Clause. It also furthers an
ongoing circuit split. And on a more practical level, it
casts aside the Fourth Amendment’s objective standard of probable cause in favor of inquiries into how a
particular piece of evidence influenced a criminal prosecution and how it might have influenced a criminal
jury that never actually heard it. At the same time,
this case offers an excellent vehicle for the Court’s
review: Frost no longer has a Fourth Amendment claim,
so his case against the officers (and, derivatively, the
City) hinges on the viability of his due process claim.

3
For all of these reasons, this Court should grant the
petition.
OPINIONS BELOW
The opinions of the court of appeals (Pet. App. 1a57a) are reported at 980 F.3d 231. The opinion of the
district court (Pet. App. 58a-87a) is not reported in
the Federal Supplement, but is available at 2019 U.S.
Dist. LEXIS 52207.
JURISDICTION
The court of appeals entered its opinion and order
on November 12, 2020, and denied rehearing and
rehearing en banc on January 21, 2021 (see Pet. App.
88a-89a). On March 19, 2020, this Court extended
the deadline for all petitions for writs of certiorari to
150 days from the date of the lower court judgment,
order denying discretionary review, or order denying a
timely petition for rehearing. The effect of that order
was to extend the deadline for filing a petition for a
writ of certiorari to June 21, 2021. The jurisdiction of
this Court is invoked under 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
The Fourth Amendment provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or
things to be seized.
U.S. Const. amend. IV.

4
Section 1 of the Fourteenth Amendment provides:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the
State wherein they reside. No State shall
make or enforce any law which shall abridge
the privileges or immunities of citizens of
the United States; nor shall any State deprive
any person of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of
the laws.
U.S. Const. amend. XIV, § 1.
STATEMENT
I. THE MURDER OF MAVON CHAPMAN,
FOR WHICH FROST WAS CHARGED AND
ACQUITTED
Early one summer morning in 2010, Mavon
Chapman was shot and killed in New York City
(Joint Appendix (“JA”) 1236). The day before, several
members of a group standing near Chapman had
assaulted Frost and a friend, sending the friend to
the hospital with a broken jaw (JA1236-38). Surveillance footage confirms that Frost and another man
were present at the scene for the next day’s shooting.
Immediately after the shooting, the footage shows,
Frost and the other man ran away from the area in
Frost’s building from where shots had been fired
(JA1240-41).
Three NYPD detectives, all defendants here, investigated the homicide (JA1237-38). The officers interviewed several eyewitnesses who were with Chapman
when he was shot, including non-party Leon Vega, but

5
none admitted seeing who shot Chapman (JA1238-40).
Another officer recognized Frost in the surveillance
footage (JA1241-42). The officers interviewed Frost,
who admitted being in the area at the time of the
shooting but identified another man, John McLaurin,
as being present and holding a gun (JA1243-46).
The officers could not locate McLaurin at the time
(JA1246).
Six months after the shooting, Vega was arrested
on an unrelated matter (JA1247). To help himself in
his criminal case, Vega reached out to the prosecutors
investigating Chapman’s murder to offer additional
information about it (JA1602). In the presence of his
criminal defense attorney, Vega revealed to a prosecutor from the Bronx District Attorney’s office that he
saw Frost and McLaurin together at the time of the
shooting, and that he saw Frost shoot Chapman. Vega
also identified Frost and McLaurin in photo arrays
(JA1247-48).
A few days later, a detective located McLaurin
(JA1248). McLaurin admitted that during the shooting he was with Frost, whom he identified in a photograph (JA1248-52). McLaurin reported that he saw
Frost looking out of a stairwell door that was cracked
open, heard gunshots, and then saw Frost putting a
silver gun in his pants or pocket (JA1250-51). When
McLaurin asked Frost why he had done “that,” Frost
responded that it was because “they” had put his
friend in the hospital the previous night (JA1251).
Given the surveillance footage of Frost running from
the area where the shots were fired, his admission to
being at the scene, two identifications of Frost as
the shooter, and Frost’s motive of revenge, the Bronx’s
DA’s office authorized Frost’s arrest (JA1252). He
was arraigned and remanded and shortly after was

6
indicted by a grand jury for murder and other charges
(JA1002, 1836). Vega and McLaurin testified before
the grand jury (JA1428).
At Frost’s criminal trial, McLaurin identified him as
the shooter, but Vega did not (JA1008-17).1 The
criminal jury acquitted Frost (JA1001).
II. THIS § 1983 LAWSUIT
A. The district court’s grant of summary
judgment
After his acquittal, Frost filed a civil suit under
42 U.S.C. § 1983 against the City of New York, two of
its agencies, various City employees, and two prosecutors. In his amended complaint, Frost alleged malicious prosecution by the NYPD detectives, several
municipal liability claims, and a substantive due
process claim against all individual defendants (JA68117).2
Frost’s substantive due process claim evolved as the
litigation progressed. Initially, Frost merely alleged
that the defendants engaged in unspecified conduct
that “shocked the conscience” (JA91-94). Later, in
opposition to defendants’ motion for summary
judgment, Frost asserted that the police had

1

The district court explained that Vega took the stand at
Frost’s criminal trial and claimed to have no memory of the
shooting or of Frost (Pet. App. 75a-76a).
2

Frost also alleged that he suffered several incidents of
excessive force at the hands of correctional officers during his
time in detention (JA99-100). The district court dismissed all of
the excessive force claims on summary judgment (Pet. App. 78a84a). The court of appeals unanimously affirmed as to one incident, but reversed as to two others (Pet. App. 32a-44a). Petitioners do not seek review of the court’s excessive force holdings.

7
fabricated evidence. He submitted a barebones declaration from Vega, stating for the first time that after
he reached out to offer information about Chapman’s
murder, the NYPD detectives, in the presence of his
own defense attorney and a prosecutor, coerced him
into falsely identifying Frost (JA1601-03). According
to Vega, the detectives pointed to a photograph of
Frost, said “this is the guy,” and “made it clear” that
he needed to identify Frost in order to get a plea
bargain (JA1602-03). Vega claimed he did not testify
against Frost at Frost’s criminal trial because he did
not want to continue to lie (JA1603). He did not
address why he had taken the stand and professed
to have forgotten all about the shooting (see Pet.
App. 75a-76a).
Armed with Vega’s declaration, Frost repackaged
his due process claim as one for pretrial detention due
to the NYPD officers’ alleged fabrication of Vega’s
identification, which the Second Circuit categorizes as
a “denial of fair trial” claim. Neither Frost’s complaint
nor the summary judgment record identified any
evidence about the impact that Vega’s identification,
specifically, had on the prosecutor’s decision to pursue
charges against Frost and seek a pretrial remand,
on the criminal court’s decision to order a pretrial
remand, or on the grand jury’s decision to indict Frost.
The district court found Vega’s declaration incredible as a matter of law (Pet. App. 75a-76a). Additionally, the court held that the undisputed facts, absent
Vega’s statement, furnished probable cause for Frost’s
arrest and disposed of the malicious prosecution claim
(Pet. App. 77a-78a). And the court dismissed Frost’s
substantive due process claim because it had granted
summary judgment on his other claims based on
standards less demanding to the plaintiff than the

8
“conscience-shocking” substantive due process
standard (Pet. App. 84a-85a). Frost appealed.
B. The court of appeals’ partial reversal of
the district court
A panel of the Court of Appeals for the Second Circuit affirmed in part and reversed in part. Although
the panel disagreed with the district court’s determination that Vega’s declaration was incredible as
a matter of law, it affirmed the dismissal of Frost’s
Fourth Amendment-based malicious prosecution claim
on an alternative ground (Pet. App. 14a). The panel
unanimously held that even without Vega’s eyewitness identification, the defendants had probable cause
to arrest and charge Frost, based on the undisputed
facts that Frost had a motive to retaliate against
Chapman, was present when Chapman was shot, and
had been identified by McLaurin as the shooter (Pet.
App. 15a-18a). The existence of probable cause thus
disposed of Frost’s malicious prosecution claim (Pet.
App. 18a). See Manganiello v. City of New York, 612
F.3d 149, 160-61 (2d Cir. 2010).
But the panel split on the issue presented here:
whether Frost could pursue a claim concerning his
pretrial detention on due process grounds, despite
the existence of probable cause. Over one judge’s
dissent (see Pet. App. 46a-57a (Kearse, J., dissenting)),
the majority held that Frost’s substantive due process
claim could proceed against the NYPD detectives (Pet.
App. 25a-32a (Katzmann, J., majority)).
The majority’s starting point was the Second Circuit’s prior case law on the due process-based “right to
a fair trial” claim (Pet. App. 18a). The two-judge
majority emphasized that under Second Circuit precedent, the “perhaps imprecisely named” fair trial claim

9
protects against a pretrial deprivation of liberty that
“results when a police officer fabricates and forwards
evidence to a prosecutor that would be likely to influence a jury’s decision, were that evidence presented to
the jury” (Pet. App. 30a). See Garnett v. Undercover
Officer C0039, 838 F.3d 265, 279 (2d Cir. 2016). Moreover, under the court’s precedent, a fair trial claim
concerning a pretrial deprivation of liberty is actionable even if the defendants had probable cause independent of the allegedly fabricated evidence (Pet. App.
25a-26a). Garnett, 838 F.3d at 277-78; see also Ricciuti
v. New York City Transit Auth., 124 F.3d 123, 129-30
(2d Cir. 1997).
Under this precedent, the majority reasoned, Frost
could pursue a fair trial claim in which a civil jury
would need to answer a counterfactual question: if it
had been presented during Frost’s murder trial, would
Vega’s identification have influenced the jury? (Pet.
App. 30a). If so, the panel majority continued, then
Vega’s identification could have “critically influenced”
the prosecutor’s decision to charge Frost, and thus
could have caused his pretrial deprivation of liberty
(Pet. App. 26a).
Still focused on its fair-trial precedent, the twojudge majority distinguished Frost’s case from a prior
decision, Dufort v. City of New York, 874 F.3d 338, 35455 (2d Cir. 2017), where the Second Circuit had held
that a due process-based fabricated evidence claim
was not viable because the alleged fabrication did
not impact the plaintiff’s criminal trial (Pet. App. 31a32a). The majority argued that the key difference was
that Frost’s fabricated evidence claim focused on his
pretrial detention, not the conduct of his criminal trial,
while Dufort had brought claims concerning both (id.).

10
The panel majority rejected the idea that under this
Court’s decision in Manuel, 137 S. Ct. 911, the Fourth
Amendment provides the exclusive constitutional
basis for a claim that fabricated evidence resulted
in a pretrial detention (Pet. App. 32a). While acknowledging this Court’s holding that the Fourth Amendment’s protections survive the initiation of legal
process, the majority reiterated that under the Second
Circuit’s precedent, a due process-based fabrication
claim may accrue before a trial takes place (id.).
Based in part on its holding that Frost had presented a triable issue on his due process claim, the
majority also vacated the dismissal of Frost’s derivative § 1983 claim against the City (Pet. App. 44a45a). The court remanded that claim for further
consideration in light of its opinion.
Judge Kearse dissented from the panel’s holding
that Frost could pursue a substantive due process
claim. The dissent would have affirmed the dismissal
of Frost’s due process claim and limited fair trial
claims to situations where the allegedly fabricated
evidence actually impacted the criminal trial (Pet.
App. 46a).
In criticizing the majority’s holding that Frost’s
due process claim for his pretrial detention was cognizable, the dissent noted this Court’s repeated
holdings that substantive due process is an inappropriate rubric for analysis if a claim is covered by a
specific constitutional provision (Pet. App. 48a). See
County of Sacramento v. Lewis, 523 U.S. 833, 842
(1998); United States v. Lanier, 520 U.S. 259, 272 n.7
(1997); Graham v. Connor, 490 U.S. 386, 395 (1989).
And the dissent emphasized that under this Court’s
decision in Manuel, the Fourth Amendment, rather
than the Due Process Clause, governs a § 1983 claim

11
that the use of allegedly fabricated evidence caused a
pretrial detention (Pet. App. 48a-60a). See Manuel,
137 S. Ct. at 919-20 & n.8. The dissent concluded
that under this Court’s precedent, the Second Circuit
should have analyzed Frost’s fabricated evidence
claim only under the Fourth Amendment (Pet. App.
50a, 54a).
The dissent closed by highlighting the curious
implications of the majority’s decision permitting
Frost to pursue a due process claim. On the one hand,
the panel held that based on the undisputed facts (i.e.,
the facts excluding Vega’s allegedly fabricated identification), probable cause existed for Frost’s detention
and prosecution because “a reasonably prudent person
would have been led to believe that Frost was guilty
of shooting Chapman” (Pet. App. 56a (emphasis omitted)). But on the other hand, Frost would be able to
argue, while pursuing his due process claim, that the
allegedly fabricated evidence “critically influenced”
the decision to charge him (id. (emphasis omitted)).
The dissent also criticized the fact that even though
the jury in Frost’s criminal case never heard Vega’s
allegedly fabricated identification, a civil jury would
be called upon to speculate about what would have
happened if the criminal jury had heard it (Pet. App.
57a).
Defendants petitioned for rehearing or rehearing en
banc on the majority’s decision to permit Frost to
pursue a due process claim (see ECF No. 94-1). The
Second Circuit denied the petition without opinion
(Pet. App. 88a-89a).

12
REASONS TO GRANT THE PETITION
I. THE DECISION BELOW CONFLICTS
WITH THIS COURT’S DECISIONS.
A. The two-judge majority misinterpreted
Manuel v. City of Joliet.
a. As the dissent below observed, the majority’s
decision below is incompatible with this Court’s 2017
decision in Manuel. In Manuel, the Court considered
a § 1983 plaintiff’s claim that he had been held in
pretrial detention, in violation of the Fourth Amendment, because a judge relied upon fabricated evidence
at a probable cause hearing. 137 S. Ct. at 915. The
Seventh Circuit had upheld the dismissal of the plaintiff’s Fourth Amendment claim. Under that court’s
precedent, a plaintiff detained pursuant to legal process could assert only a due process claim, not a Fourth
Amendment claim. Id. at 916.
This Court reversed, holding that the Fourth
Amendment—including its probable cause standard—
“governs a claim for unlawful pretrial detention even
beyond the start of legal process.” Id. at 920. The Court
noted that the commencement of legal process, such
as an arraignment or grand jury indictment, does not
eliminate a plaintiff’s Fourth Amendment claim or
“somehow . . . convert that claim into one founded
on the Due Process Clause.” Id. at 919-20 & n.8.
There is instead a “constitutional division of labor”
between the Fourth Amendment, which governs
claims challenging pretrial deprivations of liberty, and
the Fourteenth Amendment’s Due Process Clause,
which governs claims that the evidence presented
during a criminal trial was insufficient to support a
conviction and incarceration. Id. at 920 n.8.

13
b. The panel majority below disrupted the division
of labor between the Fourth Amendment and the
Due Process Clause framed in Manuel. As the twojudge majority conceded, Frost’s due process claim
addressed only his pretrial detention, because the
alleged fabrication had no impact on his criminal trial
(Pet. App. 31a). Manuel makes clear that the Fourth
Amendment governs such claims. 137 S. Ct. at 919-20
& n.8. But the majority below allowed Frost to pursue
a due process claim, on the theory that Manuel leaves
§ 1983 plaintiffs free to pursue a claim concerning
pretrial detention under either the Fourth Amendment or the Due Process Clause, even where the two
claims would lead to different results (Pet. App. 32a).
That reading of Manuel ignores this Court’s analytical
line-drawing: the Fourth Amendment governs pretrial
detention claims; the Due Process Clause doesn’t kick
in until a trial has occurred. Manuel, 137 S. Ct. at 920
n.8. After all, Manuel referenced a “constitutional
division of labor,” not a duplication of it. Id. (emphasis
added).
B. The decision below ignores this Court’s
admonitions about expanding the scope
of the Due Process Clause.
a. The decision below is doubly inconsistent with
the Court’s precedent because it considered Frost’s
claim under the Due Process Clause’s so-called “substantive” component. Time and again, this Court has
warned that litigants and courts should not invoke
substantive due process when a more specific provision of the Constitution, such as the Fourth Amendment, already regulates the challenged government
action. See, e.g., United States v. Lanier, 520 U.S. 259,
272 n.7 (1997).

14
This Court has not hesitated to apply the morespecific-provision rule to protect the Fourth Amendment’s territory from encroachment by the Due
Process Clause. Relying on the basic principle behind
this rule in Gerstein v. Pugh, 420 U.S. 103, 125-26
(1975), this Court held that the Fourth Amendment
requires a probable cause determination by a neutral
magistrate as a condition of significant pretrial detention, but declined to flesh out the rights of pretrial
detainees by reference to due process jurisprudence.
Id. at 125 n.27. This Court hewed to the Fourth
Amendment because that constitutional provision
“was tailored explicitly for the criminal justice system,
and its balance between individual and public interests always has been thought to define the ‘process
that is due’ for seizures of person or property in
criminal cases, including the detention of suspects
pending trial.” Id.
b. This point is especially applicable in this case,
where both Frost and the court below considered the
fabricated evidence claim to be a vindication of a
substantive due process right (Pet. App. 18a; JA9194).3 In Graham v. Connor, 490 U.S. 386, 395 (1989),
this Court rejected the application of substantive due
process standards to a claim that officers used excessive force during an investigatory stop. The Court
held that because “the Fourth Amendment provides
3

The Second Circuit has not consistently described which
component of the Due Process Clause protects the “fair trial”
right in the pretrial setting. Compare Zahrey v. Coffey, 221 F.3d
342, 348 (2d Cir. 2000) (suggesting procedural due process), with
McIntosh v. City of New York, 722 F. App’x 42, 45 & n.2 (2d Cir.
2018) (suggesting substantive due process); see also Garnett v.
Undercover Officer C0039, 838 F.3d 265, 276 n.6 (2d Cir. 2016)
(declining to decide the right’s source).

15
an explicit textual source of constitutional protection
against this sort of physically intrusive governmental
conduct, that Amendment, not the more generalized
notion of ‘substantive due process,’ must be the guide
for analyzing these claims.” Id.
This Court’s more-specific-provision precedent supports the line Manuel drew between the Fourth
Amendment, which governs pretrial detention claims,
and the Due Process Clause, which governs post-trial
detention claims. Manuel, 137 S. Ct. at 920 n.8.
Because Manuel makes clear that the Fourth Amendment covers claims of pretrial detention based on
allegedly fabricated evidence, the more-specificprovision rule should prevent litigants from challenging the same alleged conduct and injury as a violation
of substantive due process.
c. Without explicitly invoking the more-specificprovision rule, Manuel endorsed the plurality decision
in Albright v. Oliver, 510 U.S. 266 (1994), which held
that the Fourth Amendment, not substantive due
process, governs claims concerning pretrial detentions
accompanying criminal process. See Manuel, 137
S. Ct. at 918. The plurality started with the observation that “the Court has always been reluctant to
expand the concept of substantive due process” beyond
matters such as “marriage, family, procreation, and
the right to bodily integrity.” Albright, 510 U.S. at
271-72. Next, the plurality repeated Graham’s
more-specific-provision rule: if a specific amendment
applies to the conduct at issue, that amendment,
rather than substantive due process, governs a claim
challenging that behavior. Id. at 273. And finally,
the plurality noted that the “Framers considered
the matter of pretrial deprivations of liberty and

16
drafted the Fourth Amendment to address it.” Id. at
274.
Based on the preceding points, the Albright plurality concluded that a plaintiff’s claim that he was
deprived of liberty pretrial without probable cause
must be judged under the standards of the Fourth
Amendment, rather than substantive due process. Id.
at 271, 274-75. An opinion concurring in judgment also
directed plaintiffs to the Fourth Amendment, rather
than substantive due process, at least barring some
“exceptional case[].” See id. at 286-91 (Souter, J.,
concurring in judgment).
d. The Albright plurality’s analysis reinforces the
point that Frost’s fabricated evidence claim implicates
the Fourth Amendment, not substantive due process.
By nevertheless invoking substantive due process, the
majority below took that concept, usually reserved for
matters relating to bodily autonomy and procreation,
deep into issues of criminal procedure. And it did so
even though the Fourth Amendment was specifically
drafted to address pretrial deprivations of liberty
like the one Frost challenges in this lawsuit, and
even though the Fourth Amendment itself defines the
process due to criminal suspects. Gerstein, 420 U.S. at
125 n.27. Because the text of the Fourth Amendment
sets the standards for pretrial detention, courts may
not reach to the “scarce and open-ended” guideposts of
substantive due process instead. Albright, 510 U.S. at
272 (plurality) (quotation marks omitted). In defiance
of Albright and Graham, the majority below did
exactly that (Pet. App. 18a, 26a-30a).

17
II. AFTER MANUEL, THE CIRCUITS REMAIN
DEEPLY SPLIT OVER WHETHER THE
DUE PROCESS CLAUSE GOVERNS
PRETRIAL DETENTIONS.
The circuits have long wrestled with the question of
whether a plaintiff may sue under the Due Process
Clause for the use of fabricated evidence in support of
a pretrial detention. And they remain intractably split
today, even after Manuel.
Before Manuel, the split was lopsided in favor of
the rule that plaintiffs may pursue such a claim as a
violation of due process. See Black v. Montgomery
County, 835 F.3d 358, 371 (3d Cir. 2016) (collecting
cases); Cole v. Carson, 802 F.3d 752, 768-73 (5th Cir.
2015) (same). Manuel sparked a realignment: now
four circuits have rejected such claims, in some or all
circumstances. Another five, including the Second
Circuit, recognize such claims. Two of those circuits—
the Second and the Fifth—have expressly adhered to
their view after Manuel, with the former court denying
en banc review and the latter one issuing its decision
en banc. Thus, only a grant of certiorari can resolve
the sharp split in circuit-level authority.
A. Four circuits now reject, in at least
some circumstances, due process challenges to the pretrial use of allegedly
fabricated evidence.
At least four circuits have rejected due processbased fabrication claims in some or all pretrial contexts. While one had done so before Manuel, another
three have revisited their prior decisions in light of
Manuel and concluded that the Fourth Amendment is
the appropriate basis for such claims.

18
a. Even before Manuel, the Fourth Circuit had
held that under this Court’s more-specific-provision
precedent, the use of fabricated evidence pretrial, such
as in securing an indictment, gave rise to a claim
under the Fourth Amendment, not the Due Process
Clause. Evans v. Chalmers, 703 F.3d 636, 646 n.2
(4th Cir. 2012). The Fourth Circuit recognizes a due
process right to not be deprived of liberty as the result
of fabricated evidence, but the relevant loss of liberty
is “conviction and subsequent incarceration”—that is,
plaintiffs must show that they have been tried and
convicted because of fabricated evidence. Massey v.
Ojaniit, 759 F.3d 343, 354 (4th Cir. 2014). Because the
Fourth Circuit’s pre-Manuel precedent is consistent
with Manuel, there is no need for the Fourth Circuit
to reconsider its holdings that fabricated-evidence
challenges to pretrial detention are grounded in the
Fourth Amendment, not the Due Process Clause.
b. Before Manuel, the Third, Seventh, and Eighth
Circuits—among others—had permitted due processbased challenges to the use of fabricated evidence
pretrial. See, e.g., Black, 835 F.3d at 371; Whitlock v.
Brueggemann, 682 F.3d 567, 580 (7th Cir. 2012);
Moran v. Clarke, 296 F.3d 638, 647 (8th Cir. 2002).
Each of those three circuits changed course after
Manuel.
In Lewis v. City of Chicago, 914 F.3d 472, 475 (7th
Cir. 2019), a post-Manuel case much like this one, the
Seventh Circuit held that under Manuel, the plaintiff
could challenge the evidentiary basis for his pretrial
detention only under the Fourth Amendment. The
plaintiff alleged that he had spent years in pretrial
detention based on allegedly fabricated evidence presented in probable cause hearings. After the charges
against him were dropped, the plaintiff sued, asserting

19
claims under both the Fourth Amendment and the
Due Process Clause. Id. The Seventh Circuit held
that only the Fourth Amendment claim was viable,
since Manuel made it “clear that a § 1983 claim for
unlawful pretrial detention rests exclusively on the
Fourth Amendment,” even if the claim arises after the
initiation of legal process. Id. at 478. In addition, the
Seventh Circuit overruled prior case law to the extent
it suggested that claims of wrongful pretrial detention
could be remedied under the Due Process Clause.
Id. at 479. While so doing, it noted that claims for
wrongful conviction based on fabricated evidence
remain viable under the rubric of due process. Id.
Before Manuel, the Eighth Circuit had recognized a
free-standing fabrication of evidence claim under the
Due Process Clause because, as it understood the law,
the Fourth Amendment did not protect against the use
of fabricated evidence to manufacture the probable
cause necessary to initiate a criminal prosecution.
Moran, 296 F.3d at 647. That turned out to be inconsistent with Manuel, where this Court categorized
similar claims as arising under the Fourth Amendment, rather than the Due Process Clause. 137 S. Ct.
at 919-20.
After Manuel, the Eighth Circuit rejected its prior
approach. See Johnson v. McCarver, 942 F.3d 405,
410-11 (8th Cir. 2019). The court reasoned that under
Manuel, “[a]ny deprivation of [plaintiff’s] liberty
before his criminal trial . . . is governed by the Fourth
Amendment.” Id. And because the plaintiff had been
acquitted at trial, he had not suffered a post-trial
deprivation of liberty either. Id. at 411. In reaching its
holding, the court recognized that Manuel had abrogated its earlier precedent recognizing a free-standing

20
fabrication-of-evidence claim under the Due Process
Clause. Id. at 411 (citing Moran, 296 F.3d 638).
Finally, in the post-Manuel case Delade v. Cargan,
972 F.3d 207, 213 (3d Cir. 2020), the Third Circuit
held that a plaintiff could not bring a due processbased claim for the alleged use of fabricated evidence
to arrest and detain him pending an initial criminal
appearance. Although the plaintiff had also alleged a
Fourth Amendment claim based on the same arrest
and detention, that claim had been dismissed based
on the presence of probable cause. Id. at 209. The
court held that under Manuel and this Court’s
more-specific-provision jurisprudence, only the Fourth
Amendment governs claims of “unlawful arrest and
pretrial restraint.” Id. at 210-12. Although the Third
Circuit reserved decision on whether a plaintiff could
bring a due process-based claim for alleged fabrication
of evidence resulting in a pretrial detention past the
initial appearance before the criminal court, id. at 212
n.4, it did not identify any reason why this Court’s
precedent would yield a different result in that
situation.
B. Another five circuits have recognized
due process challenges to the pretrial
use of fabricated evidence.
Disagreeing with the cases discussed above, other
circuits have suggested that plaintiffs may challenge
the pretrial use of allegedly fabricated evidence under
the Fourteenth Amendment. At least five circuits have
done so, including two that have reaffirmed their
positions after Manuel.
a. Before Manuel, the Second and Fifth Circuits
were among the circuits that had recognized a due
process claim concerning the use of fabricated evi-

21
dence to support a pretrial deprivation of liberty. See
Cole v. Carson, 802 F.3d 752, 768-73 (5th Cir. 2015);
Ricciuti v. New York City Transit Auth., 124 F.3d 123,
130 (2d Cir. 1997). Neither circuit has read Manuel as
requiring a course correction. The Second Circuit
reached that decision in the majority opinion below.
And in a later iteration of its Cole v. Carson matter,
the en banc Fifth Circuit adhered to its prior holding
that the plaintiff could bring a due process-based
claim that allegedly fabricated evidence led to a
pretrial deprivation of liberty, even while a Fourth
Amendment claim based on the same allegations
failed due to the existence of probable cause. 935 F.3d
444, 451 (5th Cir. 2019). The court rejected the argument that Manuel required such claims to be brought
under the Fourth Amendment, interpreting it as
leaving open the possibility of due process claims
concerning pretrial deprivations of liberty based on
the alleged use of fabricated evidence. Id. at 451 n.25.
The deep split in circuit authority will not go away
on its own: the Second Circuit denied en banc review
in this case, and the Fifth Circuit’s decision in Cole
was issued en banc. Neither decision persuasively
addressed this Court’s observation, in Manuel, that
the initiation of legal process does not “convert [a
Fourth Amendment] claim into one founded on the
Due Process Clause.” 137 S. Ct. at 919. And neither
decision wrestled with this Court’s long-standing rules
against expanding the ambit of the Due Process
Clause where a more specific provision of the Constitution governs the conduct at issue—which, under
Manuel, the Fourth Amendment does here. As the
Third, Seventh, and Eighth Circuits have recognized,
Manuel and the more-specific-provision rule leave
the Fourth Amendment as the only constitutional

22
provision governing the use of fabricated evidence to
justify a pretrial detention.
b. Although they have not addressed the issue
since this Court decided Manuel, the Ninth, Tenth,
and Eleventh Circuits have also suggested that pretrial use of allegedly fabricated evidence is actionable
under the Due Process Clause. These circuits thus line
up with the Second and Fifth Circuit’s position on this
issue, against the Third, Fourth, Seventh, and Eighth
Circuits.
For example, the Ninth Circuit has held that “there
is a clearly established constitutional due process
right not to be subjected to criminal charges on the
basis of false evidence that was deliberately fabricated
by the government.” Devereaux v. Abbey, 263 F.3d
1070, 1074-75 (9th Cir. 2001); see also Spencer v.
Peters, 857 F.3d 789, 798-800 (9th Cir. 2017). And the
Tenth Circuit appears to have endorsed a similar
position, holding that it would violate due process for
municipal officials to submit fabricated evidence in
opposition to a motion to dismiss criminal charges, at
least where the denial of the motion caused the
plaintiff to plead no contest rather than face trial. Klen
v. City of Loveland, 661 F.3d 498, 515-17 (10th Cir.
2011). But see Shimomura v. Carlson, 811 F.3d 349,
361-62 (10th Cir. 2015) (rejecting due process claim
where plaintiff alleged evidence fabrication at the
arrest stage deprived him of physical liberty). Finally,
the Eleventh Circuit identified both the Fourth
Amendment and the Due Process Clause as underlying a single claim that the use of allegedly fabricated
evidence led to a pretrial detention. Weiland v. Palm

23
Beach County Sheriff’s Office, 792 F.3d 1313, 1328
(11th Cir. 2015).4
By granting certiorari, and determining whether
the Fourth Amendment alone governs claims that the
use of fabricated evidence caused a pretrial detention,
this Court will settle a circuit split that Manuel has
altered, but far from resolved.
III. THIS CASE IS AN IDEAL VEHICLE FOR
CONSIDERING THE DIVISION OF LABOR
BETWEEN THE FOURTH AMENDMENT
AND THE DUE PROCESS CLAUSE.
This case is an excellent vehicle for building on
Manuel to resolve the lingering circuit split as to
whether the Fourth Amendment is the exclusive
basis for a § 1983 claim that officials used fabricated
evidence to support a pretrial detention. The question
presented is squarely raised by the decision below,
and this case exemplifies how the choice of constitutional provision may determine whether a fabricated
evidence claim is dismissed on probable cause grounds,
on the one hand, or goes to trial, on the other.
The dismissal of Frost’s Fourth Amendment claim,
which the Second Circuit upheld on appeal (Pet. App.
14a), crystallizes the issue. The dispositive question in
the case against the arresting officers is now whether
Frost may also challenge the same pretrial detention,
and the same officer conduct, under a different standard supplied by the Due Process Clause.

4

Based on our research, the First, Sixth, and D.C. Circuits
have not yet addressed whether a plaintiff may seek compensation for a pretrial detention under the Due Process Clause, as
opposed to the Fourth Amendment.

24
This case further distills the question presented
because Frost can challenge the use of allegedly fabricated evidence only in connection with his pretrial
detention. During Frost’s criminal trial, the jury never
heard the allegedly false identification evidence, so for
purposes of the question presented, it is as if the
charges against Frost had been dismissed pretrial.
The only question here is the viability of a due process
claim for the use of allegedly fabricated evidence in
detaining someone before trial.
IV. THE
QUESTION
IMPORTANT.

PRESENTED

IS

Under the Second Circuit’s misreading of Manuel,
§ 1983 plaintiffs who attribute their pretrial detentions to fabricated evidence get two bites at the apple.
If probable cause supports the pretrial detention even
without the allegedly fabricated evidence, the plaintiff
can just pivot from the Fourth Amendment to the Due
Process Clause. This creates a “heads I win, tails you
lose” scenario against police officers and municipalities,
who may win the summary judgment dismissal of a
Fourth Amendment claim by demonstrating probable
cause as a matter of law, only to face trial for the same
alleged conduct, repackaged as a due process claim.
And it means that the Fourth Amendment does not
exclusively define rights and obligations of either
suspects or officers, because whatever the outcome
under the Fourth Amendment, another standard
would also apply and potentially trigger liability.
Indeed, the approach of the majority below threatens to displace the Fourth Amendment and its probable cause standard whenever § 1983 plaintiffs allege
that their pretrial detentions were the product of
fabricated evidence, as they often do. To see why,
consider the outcome below. The three-judge panel

25
unanimously agreed that Frost’s claim cannot succeed
under the Fourth Amendment’s probable cause standard. Considering only the unchallenged evidence, the
panel concluded that “a reasonably prudent person
would have been led to believe that Frost was guilty
of shooting” the victim (Pet. App. 15a-16a). But the
police officers’ compliance with the Fourth Amendment didn’t help them here, because the majority
permitted Frost to challenge the same alleged fabrication and the same injury under the Due Process
Clause. In other words, the panel majority “convert[ed]”
a Fourth Amendment claim “into one founded on the
Due Process Clause”—in clear disregard of Manuel.
137 S. Ct. at 919-20 & n.8.
When § 1983 plaintiffs claim that the use of fabricated evidence caused a pretrial detention, it is not
uncommon for the Second Circuit to dismiss a Fourth
Amendment claim on probable cause grounds, while
permitting the plaintiff to pursue a due process-based
“denial of fair trial” claim. See, e.g., Ashley v. City
of New York, 992 F.3d 128, 132 (2d Cir. 2021). The
Second Circuit’s approach renders the Fourth Amendment essentially superfluous: it is unclear why litigants or courts should bother analyzing pretrial
fabricated-evidence claims under the Fourth Amendment at all, if the real issue is whether the plaintiff
has sufficiently pleaded, or submitted sufficient
evidence to support, a due process-based claim for
the same behavior and injury. At least in the
Second Circuit, canny plaintiffs will always try to
avoid summary judgment by pleading a due process

26
claim in conjunction with—or instead of—a Fourth
Amendment one.5
As Justice Souter recognized, the jurisprudence of
the Fourth Amendment is “well-established,” while
the contours of “novel due process right[s]” are
often “ill-defined.” Albright v. Oliver, 510 U.S. 266, 288
(1994) (Souter, J., concurring in judgment). And there
are pragmatic concerns with “subjecting government
actors to two (potentially inconsistent) standards for
the same conduct.” Id. at 287-88. The decision below
ignores that concern, applying two inconsistent standards to the same conduct by the same governmental
officials. It complicates the well-established standards
of the Fourth Amendment with an ill-defined (and illnamed) “fair trial” claim brought under the rubric of
due process.
No one would deny that police falsification of evidence is reprehensible and should not occur in the
pretrial context or any other. At the same time, post5

The Second Circuit has repeatedly addressed Fourth Amendment and due process claims for the same or overlapping allegations. See Ashley, 992 F.3d at 132; Garnett v. Undercover Officer
C0039, 838 F.3d 265, 273-74 (2d Cir. 2016); Ricciuti v. New York
City Transit Auth., 124 F.3d 123, 132 (2d Cir. 1997). And examples abound of cases where plaintiffs have presented both claims
in the district courts within the Second Circuit. See, e.g., Medina
v. City of New York, No. 20-cv-0797, 2021 U.S. Dist. LEXIS 82339
(S.D.N.Y. Apr. 29, 2021); Walsh v. City of New York, No. 19-cv9238, 2021 U.S. Dist. LEXIS 62982 (S.D.N.Y. Mar. 31, 2021);
Buari v. City of New York, No. 18-cv-12299, 2021 U.S. Dist.
LEXIS 61273 (S.D.N.Y. Mar. 30, 2021); Norales v. Acevedo, No.
20-cv-2044, 2021 U.S. Dist. LEXIS 34361 (S.D.N.Y. Feb. 24,
2021); Appling v. City of New York, No. 18-cv-5486, 2021 U.S.
Dist. LEXIS 34060 (E.D.N.Y. Feb. 23, 2021); Gutierrez v. City of
New York, No. 18-cv-3621, 2021 U.S. Dist. LEXIS 33013
(E.D.N.Y. Feb. 22, 2021).

27
hoc claims of fabrication and falsification are easy
to allege in civil litigation, yet difficult to disprove.
Investigations of serious crimes frequently present
conflicting accounts or uncertainties about what
occurred and arguable gaps or inconsistencies in the
investigatory record. A plaintiff seeking to convert
such matters into a “fair trial” claim need only append
an allegation that such uncertainties or gaps reflect
deliberate falsification by police.
This point is illustrated by the threadbare and
implausible theory advanced by Frost here—and
sustained by the majority below as sufficient to
require a trial. Frost’s entire challenge to his prosecution now rests on two sentences in Vega’s two-page
declaration. There, Vega claimed, for the very first
time, that when he came forward to provide information about Chapman’s murder, one detective
“pointed to the photo of Jarrett Frost and said ‘this is
the guy,’” and “the detectives” somehow “made it clear
to [him] that if [he] wanted a deal, [he] would identify
Frost as the shooter” (JA1602-03). Vega asserted this
even though he was the one who initiated contact with
authorities to provide additional information about
the shooting, and even though his defense counsel and
an assistant district attorney were present throughout
his discussions with police. For the majority below,
that was enough to warrant a trial on the alleged
coercion of Vega’s identification (Pet. App. 25a-26a).
That slim reed of a factual issue, in turn, now
requires a civil jury to inquire into whether Vega’s
identification would have been material to the
criminal jury, imagining a counterfactual situation
where, unlike what actually happened, the criminal
jury heard it (Pet. App. 30a). And because Frost
challenges his pretrial detention, the jury will also

28
have to figure out whether Vega’s identification
caused Frost’s detention—that is, whether this particular piece of evidence critically affected the decision
of the prosecutors to seek remand and the criminal
court’s decision to order it, where the remaining
evidence would have led a reasonable person to believe
that Frost was guilty of Chapman’s murder (Pet. App.
18a, 25a-26a).
The upshot of Manuel was to recognize that
the Fourth Amendment provides a clear metric for
judging the constitutionality of pretrial detentions.
For a Fourth Amendment claim to succeed, a plaintiff
challenging pretrial detention must show an absence
of objective probable cause, even where the claim is
based on the use of allegedly fabricated evidence. This
claim would thus join numerous others under § 1983
that are governed by an objective standard of probable
cause. Those include not just false arrest claims under
the Fourth Amendment, but also, for example, claims
alleging retaliatory prosecution or retaliatory arrest
under the First Amendment. See, e.g., Hartman v.
Moore, 547 U.S. 250, 265-66 (2006) (retaliatory prosecution); Nieves v. Bartlett, 139 S. Ct. 1715, 1724-27
(2019) (retaliatory arrest). Similarly, if Frost were
alleging that a search or arrest warrant contained a
false statement, the issue would be whether, under
Franks v. Delaware, 438 U.S. 154 (1978), objective
probable cause existed for the search or arrest without
the allegedly false information. See, e.g., Jordan v.
Town of Waldoboro, 943 F.3d 532, 540-41 (1st Cir.
2019). Reversing the decision below would confirm
that the same well-established, objective standard of
probable cause controls in cases like this one, too.
Finally, there is no need to treat otherwise rocksolid evidence of probable cause as indelibly tainted by

29
one piece of allegedly fabricated evidence. Applying
the Fourth Amendment to fabricated evidence claims
like Frost’s does not mean that police officers’ use of
fabricated evidence would go unrecognized or unpunished. Of course, if probable cause for pretrial detention is lacking absent fabricated evidence, then a
litigant may have a valid Fourth Amendment claim,
as this Court recognized in Manuel. And if fabricated
evidence leads to a faulty conviction, both habeas
petitions and § 1983 suits may provide remedies. See,
e.g., Whitlock v. Brueggemann, 682 F.3d 567, 573 (7th
Cir. 2012). Law enforcement officers who fabricate
evidence are also subject to criminal prosecution, civil
claims under state law, and professional discipline.
See, e.g., N.Y. Penal Law §§ 195.00; 210.45. (Consol.
2021).
This case presents the ideal vehicle to resolve the
lingering circuit split over the viability of due process
claims alleging that fabricated evidence was used to
support a pretrial detention. A grant of certiorari
would provide an opportunity for this Court to clarify
that under Manuel, such claims are governed exclusively by the Fourth Amendment.

30
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
GEORGIA M. PESTANA
Acting Corporation Counsel
of the City of New York
RICHARD DEARING*
SCOTT SHORR
JESSE A. TOWNSEND
100 Church Street
New York, NY 10007
(212) 356-2500
rdearing@law.nyc.gov
* Counsel of Record
June 21, 2021

Counsel for Petitioners

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
Docket No. 19-1163
————
JARRETT FROST,
Plaintiff-Appellant,
v.
NEW YORK CITY POLICE DEPARTMENT, NEW YORK
CITY DEPARTMENT OF CORRECTION, THE CITY OF
NEW YORK, DISTRICT ATTORNEY ROBERT T. JOHNSON,
DISTRICT ATTORNEY ROBERT HERTZ, DETECTIVE
MICHAEL LOPUZZO, DETECTIVE RICHARD SPENNICCHIA,
DETECTIVE JOSEPH O’NEIL, CORRECTION OFFICER
TORRES, CORRECTION OFFICER SORIA, CORRECTION
OFFICER CARTY, CORRECTION OFFICER SOUFFRANT,
CORRECTION OFFICER TATULLI, CORRECTION OFFICER
CAPTAIN MCDUFFIE, CORRECTION OFFICER PREVILLON,
CORRECTION OFFICER GONZALEZ, CORRECTION
OFFICER CAPTAIN RYAN, CORRECTION OFFICER YOUNG,
CORRECTION OFFICER MCLAUGHLIN, CORRECTION
OFFICER BARKSDALE, CORRECTION OFFICER CORKER,
CORRECTION OFFICER SANCHEZ, CORRECTION OFFICER
HILL, CORRECTION OFFICER CAPTAIN CLAYTON
JEMMOTT, CORRECTION OFFICER JAY JOYE,
Defendants-Appellees,
DETECTIVES JOHN DOE #1–4, Individually and
in Their Official Capacity as New York City Police
Officers, CORRECTION OFFICERS JOHN DOE #1–5,
Individually and in Their Official Capacity as

2a
New York City Correction Officers,
CORRECTION OFFICER THOMAS,
Defendants.1
————
AUGUST TERM, 2019
Argued: February 20, 2020
Decided: November 12, 2020
————
Before: KEARSE, KATZMANN, and BIANCO, Circuit
Judges.
Plaintiff-appellant Jarrett Frost was arrested and
charged with murder in January 2011. He was then
detained at Rikers Island until a jury acquitted him
of all charges in June 2014. After his release, Frost
filed a civil rights action against several groups of
defendants, including New York City Police Department detectives, New York City Department of Correction officers, and the City of New York. As relevant
here, Frost brought claims in the United States
District Court for the Southern District of New York
for malicious prosecution, due process violations, the
use of excessive force, and municipal liability. The
district court (Buchwald, J.) granted summary judgment in favor of defendants and dismissed Frost’s
complaint in its entirety.
On appeal, we conclude that the district court
correctly dismissed Frost’s malicious prosecution
claim and one of his excessive force claims, but the
district court erred in dismissing Frost’s due process
claim and two of his excessive force claims. We also
conclude that the district court should address the
1

The Clerk of Court is directed to amend the caption as set
forth above.

3a
merits of Frost’s municipal liability claim in the first
instance. Accordingly, the district court’s judgment
is AFFIRMED in part, REVERSED in part, and
VACATED in part, and the case is REMANDED for
further proceedings consistent with this opinion.
Judge Kearse dissents in part in a separate opinion.
————
JONATHAN I. EDELSTEIN (Ellie A. Silverman, on the
brief), Edelstein & Grossman, New York, NY,
for Plaintiff-Appellant.
CLAIBOURNE HENRY (Richard Dearing, Scott Shorr, on
the brief), Assistant Corporation Counsel, for
James E. Johnson, Corporation Counsel of the
City of New York, New York, NY, for DefendantsAppellees.
————
KATZMANN, Circuit Judge:
This case arises out of the detention and prosecution
of plaintiff-appellant Jarrett Frost. In January 2011,
Frost was arrested and charged with the murder of an
individual named Mavon Chapman. Frost was then
detained at Rikers Island until June 2014, when a jury
acquitted him of all charges. After his release, Frost
filed a civil rights action in the United States District
Court for the Southern District of New York against
several groups of defendants, including New York
City Police Department (“NYPD”) detectives, New
York City Department of Correction (“DOC”) officers,
and the City of New York. As relevant here, Frost
brought malicious prosecution and due process claims
against the NYPD detectives, excessive force claims
against the DOC officers, and municipal liability
claims against the City.

4a
After a lengthy discovery period, defendants filed
a motion for summary judgment, which the district
court granted in a Memorandum and Order dated
March 27, 2019. See Frost v. City of New York, No. 15
Civ. 4843 (NRB), 2019 WL 1382323 (S.D.N.Y. Mar. 27,
2019). With respect to the malicious prosecution, due
process, and excessive force claims, the district court
(Buchwald, J.) held that Frost had failed to create
a triable issue regarding any individual defendant’s
liability. Id. at *8–12. And because no individual
defendant could be held liable, the district court
concluded, Frost’s municipal liability claims against
the City failed as well. Id. at *12.
On appeal, we hold that the district court correctly
dismissed Frost’s malicious prosecution claim and one
of his excessive force claims, but the district court
erred in dismissing Frost’s due process claim and
two of his excessive force claims.2 We also conclude
that the district court should address the substance of
Frost’s municipal liability claims in the first instance,
as certain individual defendants now face potential
liability. Accordingly, the district court’s judgment
is AFFIRMED in part, REVERSED in part, and
VACATED in part, and the case is REMANDED for
further proceedings consistent with this opinion.
BACKGROUND
I. The Murder of Mavon Chapman
Mavon Chapman was shot and killed in the early
morning hours of July 6, 2010. The shooting took place
2

As discussed below, the district court correctly dismissed the
excessive force claim arising out of the January 16, 2013 incident,
but it erred in dismissing the claims arising out of the October 9,
2012 and July 16, 2013 incidents.

5a
at the corner of East 149th Street and Morris Avenue
in the Bronx, one block from the apartment building
where Frost lived. Approximately 24 hours prior to the
shooting, Frost had been assaulted in the same area
by members of a neighborhood gang, some of whom
were friends of Chapman’s.
Shortly after Chapman was killed, defendants
Detectives Michael Lopuzzo, Richard Spennicchia,
and Joseph O’Neil were assigned to investigate the
murder. They interviewed several witnesses to the
shooting, including non-party Leon Vega, who was
one of the gang members who assaulted Frost the
day before. None of the witnesses could identify the
shooter, but they told the detectives that the shots had
come from the direction of the apartment complex
where Frost lived. Vega was interviewed twice on
the day of Chapman’s murder, and during his first
interview he told detectives that he did not know who
had shot Chapman or where the shots had come from.
During his second interview, however, Vega said that
the shots had come from a doorway leading to a stairwell in Frost’s apartment complex and that a black
male wearing a white t-shirt had been standing in the
doorway at the time of the shooting.
In the hours following Chapman’s murder, O’Neil
and Spennicchia visited the crime scene and recovered
surveillance footage from the stairwell described by
Vega. The footage showed two black males walking
down the stairs and then running back up immediately after Chapman was shot. One of the men, later
identified as non-party John McLaurin, was wearing
a white tank top and jeans. The other, later identified
as Frost, was wearing a green t-shirt and tan shorts.
The next day, July 7, O’Neil and Spennicchia picked
Frost up at school to question him. At the time, the

6a
detectives considered Frost to be a witness. Frost
admitted that he had been in the stairwell with
McLaurin when Chapman was shot, but he told the
detectives that McLaurin had fired the gun. The
detectives did not arrest Frost, and they chose instead
to look for McLaurin, whom they were unable to locate.
Six months passed without any major developments
regarding Frost. Then, on January 6, 2011, O’Neil and
Spennicchia learned that Vega had been arrested
for an unrelated crime and wanted to enter into a
cooperation agreement in exchange for information
about Chapman’s murder. The detectives went to
observe an interview with Vega at the Bronx District
Attorney’s Office and to show Vega photo arrays. The
detectives, Vega, and an assistant district attorney
were present at the interview, as was Vega’s defense
counsel.
During the interview, Vega identified Frost from
one of the photo arrays as the individual who shot
Chapman. Three days later, in an apparent coincidence, Spennicchia saw McLaurin on the street, and
the detectives brought him in for an interview. Like
Vega, McLaurin told the detectives that Frost was
responsible for the shooting. And according to McLaurin,
Frost admitted that he had killed Chapman in retaliation for the previous day’s assault.
On January 13, 2011—one week after Vega’s interview—Frost was arrested on charges of murder in the
second degree, manslaughter with intent to cause
physical injury, and criminal possession of a weapon
in the second degree. The following day, Frost was
arraigned and remanded to Rikers Island, and he was
indicted shortly thereafter. Frost remained incarcerated at Rikers until a jury acquitted him of all charges
on June 24, 2014.

7a
II. Frost’s Detention at Rikers Island
During his nearly three-and-a-half-year detention
at Rikers, Frost received numerous disciplinary infractions, and he was involved in multiple physical altercations with correction officers and inmates. Indeed,
Frost’s transgressions earned him a “Red ID” classification, which is given to inmates who are violent or
are caught with weapons. Although the record below
describes Frost’s misbehavior in considerable detail,
only the following three incidents are relevant to the
instant appeal.
The first incident took place on October 9, 2012,
when Frost was brought to Bronx Supreme Court for
an attorney visit. While there, Frost was escorted by
defendant Correction Officer Captain Clayton Jemmott,
and defendant Correction Officer Jay Joye was also
present. According to Jemmott, Frost became combative and said, “I should spit in your fuckin’ face.”
J.A. 609:16–17. In response, Jemmott took Frost to the
ground and either Jemmott or Joye kicked Frost in the
ribs. Jemmott and Joye then dragged Frost on the
ground by his leg shackles. Later that day, Frost was
taken to a medical clinic, where he was diagnosed with
a ruptured eardrum and bruising on his forehead and
cheek.
The second incident took place on January 16, 2013,
while Frost was housed in the Central Punitive Segregation Unit (“CPSU”). As Frost was returning to
the CPSU from court, he was strip searched by defendant Correction Officer Hill. After Frost removed his
clothing, Hill observed a bag of contraband cheese on
the floor, and Hill also reported seeing a small object
wrapped in black plastic. Frost turned over the cheese,
but he did not relinquish the small object, which Hill
reportedly saw Frost secrete in his anal cavity. Hill

8a
informed his supervisor of these events, and defendant
Correction Officer Captain Ryan was assigned to lead
an extraction team to recover the secreted object. Ryan
assembled a team that included defendants Correction
Officers Young, McLaughlin, Barksdale, Corker, and
Sanchez.
When Ryan’s team went to begin the extraction,
Ryan first spoke with Frost for 10 to 15 minutes and
ordered Frost to return the contraband. After Frost
refused to turn anything over, Ryan’s extraction team
entered the intake search area where Frost was
located. Video footage of the extraction shows that
Frost resisted the officers and tried to prevent them
from entering the area by holding the door shut.
Officers then struggled to restrain Frost for several
minutes. After being restrained, Frost was taken to
a cell where he was ordered to squat, after which a
blade wrapped in electrical tape was recovered from
the floor. Frost sustained bruises from the extraction.
He later pled guilty to promoting prison contraband in
the second degree in connection with the incident. As
part of his plea allocution, Frost specifically admitted
to possessing the blade.
The third and final incident relevant to this appeal
took place on July 16, 2013, when Frost and eighteen
other inmates refused to leave the CPSU recreation
yard and return to their cells. Defendant Correction
Officer Captain McDuffie and other correction officers
spent seven hours trying to convince Frost and his
fellow inmates to come back inside, but the inmates
refused. Eventually McDuffie was authorized to
extract Frost from the recreation yard, and he formed
an extraction team that included defendants Correction Officers Soria, Previllon, Souffrant, Carty, Tatulli,
and Gonzalez.

9a
Video footage shows that when the extraction team
arrived at Frost’s pen in the recreation yard, Frost
was positioned in a charging stance and had ripped
his clothing to make elbow pads and a mouth guard.
When the extraction team opened the door to the pen,
Frost charged the officers and ended up on top of one
of them. An extended struggle ensued, with the officers eventually restraining Frost. After Frost was
restrained, the video footage appears to show one of
the members of the extraction team repeatedly moving
his knee toward Frost’s head. At this time, other
inmates can be heard in the background yelling for the
officer to stop kicking Frost in the head. As a result of
the episode, Frost sustained a black eye, as well as
cuts and scrapes to his forehead, wrists, and hand.
III. Procedural History
Frost remained incarcerated at Rikers until a jury
acquitted him of all charges in June 2014. Frost then
commenced the underlying action on June 22, 2015,
and the operative complaint was filed on February 5,
2016. As relevant here, Frost brought the following
claims under 42 U.S.C. § 1983: (1) malicious prosecution against the City and Detectives Spennicchia,
O’Neil, and Lopuzzo; (2) excessive force against all
DOC officers except Correction Officer Gonzalez; (3)
substantive due process against all individual defendants; and (4) municipal liability against the City. See
Frost v. City of New York, No. 15 Civ. 4843 (NRB),
2019 WL 1382323, at *1 (S.D.N.Y. Mar. 27, 2019).
Frost also brought several state law claims against
different combinations of defendants. Id.
On July 10, 2018, defendants moved for summary
judgment. Frost opposed the motion, and he submitted
a declaration from Leon Vega dated September 13,
2018. As noted above, Vega had failed to identify

10a
Chapman’s killer when he was first questioned by
detectives on July 6, 2010, but he later pinned the
shooting on Frost during his January 6, 2011 interview at the Bronx District Attorney’s Office. According
to his 2018 declaration, Vega falsely identified Frost
in 2011 because he was facing a felony charge, and
Detectives Spennicchia and O’Neil made clear to Vega
that he would need to identify Frost as the shooter in
order to get a deal. The truth, Vega stated, was that
he had seen Frost standing in the stairwell from which
Chapman was shot, but Frost had not pulled the
trigger. Instead, the shooter was a second individual
who was wearing a white shirt, but whom Vega was
unable to identify. Vega explained that he “would
never have identified Frost as the shooter if the
detectives hadn’t told [him] to do so,” and he asserted
that “when Frost came to trial, [Vega] refused to
testify against him because [he] did not want to
continue a lie.” J.A. 1603 ¶¶ 19–20.
Notwithstanding Vega’s declaration, the district
court granted defendants’ motion for summary judgment and dismissed Frost’s complaint in its entirety.
See Frost, 2019 WL 1382323, at *12. Beginning with
the malicious prosecution claim, the district court
rejected Frost’s argument that the NYPD detectives
had commenced a criminal proceeding against him
by coercing Vega’s identification. In the district court’s
view, Vega’s declaration was “‘so replete with inconsistencies and improbabilities that no reasonable juror
would undertake the suspension of disbelief necessary
to credit’ his allegation,” id. at *8 (quoting Jeffreys v.
City of New York, 426 F.3d 549, 551 (2d Cir. 2005)),3
3

Unless otherwise indicated, in quoting cases, all internal
quotation marks, alterations, emphases, footnotes, and citations
are omitted.

11a
and prosecutors from the Bronx District Attorney’s
Office had been present at all relevant interviews and
had made an independent decision to initiate proceedings against Frost, id. at *9. Furthermore, the district
court reasoned, even if the detectives had commenced
a criminal proceeding against Frost by coercing Vega’s
identification, there was probable cause to prosecute
Frost based on his undisputed presence in the
stairwell from which Chapman was shot, McLaurin’s
testimony identifying Frost as the shooter, and Frost’s
motive to retaliate for the previous day’s assault. Id.4
Moving to Frost’s excessive force claims, the district
court held that Frost did not raise a triable issue
with respect to the three incidents discussed above.
Regarding the October 9 incident, the district court
reasoned that Frost had established himself as a violent inmate and that Jemmott and Joye responded
reasonably to Frost’s threat to spit on Jemmott. Id. at
*10. As to the January 16 incident, the district court
held that video footage of the extraction showed that
the DOC officers used reasonable force and inflicted
only de minimis injuries. Id. at *11. Likewise, for the
July 16 incident, the district court held that video
footage showed as a matter of law that the force used
to extract Frost from the recreation yard and the
minor injuries that he sustained were not excessive.
Id.5
4

Because the district court found that there was probable
cause to prosecute Frost, it also found that there was no triable
issue as to whether defendants acted with malice. Frost, 2019 WL
1382323, at *9 n.27.
5

The district court also held that Frost failed to create a
triable issue with respect to an incident that took place on July
25, 2012. Id. at *9–10. Frost does not challenge that decision on
appeal.

12a
Finally, the district court held that Frost failed to
create a genuine dispute regarding his substantive
due process claim because he failed, inter alia, to
show that the NYPD detectives “provide[d] false
information likely to influence a jury’s decision and
forward[ed] that information to prosecutors.” Id. at
*12. The district court also held that Frost’s municipal
liability claims against the City failed because
his underlying claims against individual defendants
failed. Id. And because the district court dismissed
Frost’s federal claims, it declined to exercise supplemental jurisdiction over his remaining state law
claims and accordingly dismissed those claims without
prejudice. Id.
The district court entered judgment on March 28,
2019, and Frost timely appealed.
DISCUSSION
I. Standard of Review
“We review orders granting summary judgment de
novo and focus on whether the district court correctly
concluded that there was no genuine dispute as to any
material fact and that the moving party was entitled
to judgment as a matter of law.” Chunn v. Amtrak, 916
F.3d 204, 207 (2d Cir. 2019). “An issue of fact is
genuine if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party. A fact
is material if it might affect the outcome of the suit
under the governing law.” SCR Joint Venture L.P. v.
Warshawsky, 559 F.3d 133, 137 (2d Cir. 2009). “The
burden of showing that no genuine factual dispute
exists rests on the party seeking summary judgment,
and in assessing the record to determine whether
there is a genuine issue as to a material fact, the court
is required to resolve all ambiguities and draw all

13a
permissible factual inferences in favor of the party
against whom summary judgment is sought.” Sec. Ins.
Co. of Hartford v. Old Dominion Freight Line, Inc., 391
F.3d 77, 83 (2d Cir. 2004). “In applying this standard,
the court should not weigh evidence or assess the
credibility of witnesses. These determinations are
within the sole province of the jury.” Hayes v. New
York City Dep’t of Corr., 84 F.3d 614, 619 (2d Cir.
1996).
II. Malicious Prosecution
“In order to prevail on a § 1983 claim against a state
actor for malicious prosecution, a plaintiff must show
a violation of his rights under the Fourth Amendment
and must establish the elements of a malicious prosecution claim under state law.” Manganiello v. City of
New York, 612 F.3d 149, 160–61 (2d Cir. 2010). “To
establish a malicious prosecution claim under New
York law, a plaintiff must prove (1) the initiation or
continuation of a criminal proceeding against plaintiff;
(2) termination of the proceeding in plaintiff’s favor;
(3) lack of probable cause for commencing the
proceeding; and (4) actual malice as a motivation for
defendant’s actions.” Id. at 161.
The district court dismissed Frost’s malicious prosecution claim after concluding that defendants did not
initiate a criminal proceeding against Frost and that,
in the alternative, Frost’s prosecution was supported
by probable cause. See Frost v. City of New York, No.
15 Civ. 4843 (NRB), 2019 WL 1382323, at *8–9
(S.D.N.Y. Mar. 27, 2019). While acknowledging that
police officers can initiate criminal proceedings by
“creat[ing] false information and forward[ing] it to
prosecutors,” id. at *8; see Ricciuti v. N.Y.C. Transit
Auth., 124 F.3d 123, 130 (2d Cir. 1997), the district
court held that no reasonable juror would credit the

14a
allegations in Vega’s declaration that defendants had
coerced him into identifying Frost, Frost, 2019 WL
1382323, at *8. The district court also reasoned that
prosecutors from the Bronx District Attorney’s Office
made an independent decision to initiate proceedings
against Frost, thus absolving defendants of liability.
Id. at *9. And with respect to probable cause, the district court concluded that Frost’s prosecution was
justified by his undisputed presence at the scene of
the crime, McLaurin’s identification of Frost as the
shooter, and the fact that Frost had a motive to
retaliate for the previous day’s assault. Id.6
For the reasons discussed below in the context of
Frost’s due process claim, we hold that the district
court erred in discrediting Vega’s declaration at the
summary judgment stage. We nevertheless agree with
the district court that there was probable cause to
prosecute Frost, even without Vega’s identification.
And because “the existence of probable cause is a complete defense to a claim of malicious prosecution,”
Stansbury v. Wertman, 721 F.3d 84, 94–95 (2d Cir.
2013), we conclude that the district court was correct
to dismiss Frost’s claim.7
“Probable cause, in the context of malicious
prosecution, has . . . been described as such facts and
circumstances as would lead a reasonably prudent
person to believe the plaintiff guilty.” Boyd v. City of
6

The district court also held that Frost failed to raise a triable
issue as to malice because there was probable cause to prosecute
him. Frost, 2019 WL 1382323, at *9 n.27.
7

Because the existence of probable cause is dispositive of
Frost’s malicious prosecution claim, we need not decide whether
prosecutors made an independent decision to initiate proceedings
against Frost, thereby absolving defendants of liability. We also
need not decide whether Frost raised a triable issue as to malice.

15a
New York, 336 F.3d 72, 76 (2d Cir. 2003).8 We have
recognized that, in general, “[p]robable cause is a
mixed question of law and fact.” Dufort v. City of New
York, 874 F.3d 338, 348 (2d Cir. 2017). In a case such
as this one, however, “where there is no dispute as to
what facts were relied on to demonstrate probable
cause, the existence of probable cause is a question of
law for the court.” Walczyk v. Rio, 496 F.3d 139, 157
(2d Cir. 2007).
As the district court explained, the following facts
are undisputed: First, defendants recovered surveillance footage showing Frost and McLaurin walking
down and then running up the stairwell from which
Chapman was shot, immediately after Chapman was
shot. Second, Frost admitted to defendants that he
was in the stairwell with McLaurin when Chapman
was shot, and McLaurin identified Frost as the
shooter. And third, defendants were aware that Frost
had a motive to retaliate against Chapman because
Frost had been assaulted by Chapman’s friends
the night before. Given these undisputed facts, we
conclude as a matter of law that a reasonably prudent

8

“Even in the absence of probable cause, a police officer is
entitled to qualified immunity where (1) her conduct does not
violate clearly established statutory or constitutional rights of
which a reasonable person would have known, or (2) it was
objectively reasonable for her to believe that her actions were
lawful at the time of the challenged act.” Betts v. Shearman, 751
F.3d 78, 82–83 (2d Cir. 2014). However, “the defense of qualified
immunity can . . . be forfeited,” Fabrikant v. French, 691 F.3d 193,
211–12 (2d Cir. 2012), and defendants have failed to raise it
before this Court in the context of Frost’s malicious prosecution
claim.

16a
person would have been led to believe that Frost was
guilty of shooting Chapman. See Boyd, 336 F.3d at 76.9
Frost resists this conclusion, and he cites our
decision in Dufort v. City of New York, 874 F.3d 338
(2d Cir. 2017), for the proposition that an individual’s
presence at the scene of a crime and his identification
by a fellow suspect are insufficient to establish probable cause. But Dufort is inapposite. As relevant here,
Dufort involved an attack by multiple assailants, and
the plaintiff was arrested “based on little more than
a witness’s statement that he” was one of several
people present who wore a similar shirt to one of the
attackers. 874 F.3d at 350. The plaintiff was also
identified by a co-defendant who was facing a possible
prison sentence of fifty years to life, and who testified
only equivocally that he thought the plaintiff participated in the attack. Id. at 351. In the instant case, by
contrast, surveillance footage unambiguously places
Frost in the stairwell from which the shots were fired.
Furthermore, McLaurin—who was not arrested in
connection with Chapman’s murder—unequivocally
identified Frost as the shooter.
Frost’s position is further undermined by analogous
cases in which we have held that an individual’s
presence in the location from which shots are fired can
support a finding of probable cause. In Thomas v. City
of New York, 562 F. App’x 58 (2d Cir. 2014), we held
that there was probable cause to arrest the plaintiff
where “the facts available . . . at the time of the arrest
included (1) evidence that [the victim] was shot at
9

Because the undisputed facts support a finding of probable
cause, we need not address whether Frost’s indictment created a
presumption of probable cause. See Savino v. City of New York,
331 F.3d 63, 72 (2d Cir. 2003).

17a
close range; (2) [the victim’s] photo array identification
of [the plaintiff] as the individual who walked by him
on an otherwise empty street moments before he was
shot; and (3) [the victim’s] statement that, after he was
shot, he turned and saw [the plaintiff] standing on the
sidewalk in the direction of the continued gunfire.” Id.
at 59–60. We explained that probable cause existed
even though the victim did not see whether the
plaintiff was holding a gun. Id. at 60. Likewise, in
Husbands ex rel. Forde v. City of New York, 335 F.
App’x 124 (2d Cir. 2009), we held that there was
probable cause to arrest the plaintiff “[g]iven the
undisputed facts . . . that shots were suddenly fired,
that [an officer] saw [the plaintiff] when he looked in
the direction from which the shots had been fired, that
[the plaintiff] was standing alone, and that [the
plaintiff] promptly turned around and proceeded” in
the direction from which the shots came. Id. at 127.
Again, we made clear that probable cause did not
depend on “whether or not [the officer] actually saw a
gun.” Id.
Here, there is no dispute that Frost was present
in the location from which Chapman was shot, at
the time that Chapman was shot. Viewed in light of
Thomas and Husbands, these facts alone tend to
weigh in favor of a finding of probable cause. And
although the plaintiffs in Thomas and Husbands were
by themselves, whereas Frost was with McLaurin, we
conclude that McLaurin’s identification of Frost and
Frost’s retaliatory motive compensate for any reduction in probable cause that this distinction introduces.
With respect to this latter point in particular, Frost
offers no reason to discount the significance of his
motive. Instead, he makes only the conclusory assertion that his “alleged motive . . . is . . . insufficient” to
support a finding of probable cause. Appellant’s Br. 32.

18a
Because we believe that Frost’s motive is significant,
and because the undisputed facts, taken together,
would have led a reasonably prudent person to believe
that Frost shot Chapman, we conclude that Frost’s
prosecution was supported by probable cause. The
district court was therefore correct to dismiss his
malicious prosecution claim.
III. Due Process
The Due Process Clause guarantees a criminal
defendant’s “right to a fair trial.” Ramchair v. Conway,
601 F.3d 66, 73 (2d Cir. 2010). This right is violated
“[w]hen a police officer creates false information likely
to influence a jury’s decision and forwards that
information to prosecutors.” Ricciuti v. N.Y.C. Transit
Auth., 124 F.3d 123, 130 (2d Cir. 1997). Such violations are “redressable in an action for damages under
42 U.S.C. § 1983.” Id. And unlike a malicious prosecution claim, “a Section 1983 claim for the denial of a
right to a fair trial based on an officer’s provision of
false information to prosecutors can stand even if the
officer had probable cause to arrest the Section 1983
plaintiff.” Garnett v. Undercover Officer C0039, 838
F.3d 265, 277–78 (2d Cir. 2016).
In the proceedings below, Frost alleged substantive
due process violations against all individual defendants. See Frost v. City of New York, No. 15 Civ. 4843
(NRB), 2019 WL 1382323, at *1 (S.D.N.Y. Mar. 27,
2019). The only violations relevant to the instant
appeal, however, are those alleged against the NYPD
detectives. Specifically, Frost argues that the detectives deprived him of due process by coercing Vega into
identifying him as the shooter and by giving this
evidence to prosecutors, who used it to seek Frost’s

19a
detention at Bikers Island and to bring him to trial on
the underlying charges.10
Although the district court did not discuss Frost’s
due process argument in detail, it suggested that the
claim failed because there was no evidence that the
NYPD detectives “provide[d] false information likely
to influence a jury’s decision and forward[ed] that
information to prosecutors.” Id. at *12. This suggestion followed from the district court’s earlier conclusion, in the context of Frost’s malicious prosecution
claim, that there was no genuine dispute as to whether
defendants coerced Vega into falsely identifying Frost
because Vega’s declaration was “‘so replete with inconsistencies and improbabilities that no reasonable juror
would undertake the suspension of disbelief necessary
to credit’ his allegation.” Id. at *8 (quoting Jeffreys v.
City of New York, 426 F.3d 549, 551 (2d Cir. 2005)). On
appeal, Frost argues that the district court erred both
in discrediting Vega’s declaration at the summary
judgment stage and in dismissing Frost’s due process
claim as a result. For the reasons below, we agree.
It is a bedrock rule of civil procedure that “a district
court generally cannot grant summary judgment
based on its assessment of the credibility of the evidence presented.” Agosto v. INS, 436 U.S. 748, 756
(1978). In Jeffreys v. City of New York, however, we
recognized a narrow exception “in the rare circumstance where the plaintiff relies almost exclusively on
his own testimony, much of which is contradictory and
10

Frost also argues that the detectives deprived him of due
process by failing to forward exculpatory evidence to prosecutors.
Because we reverse the dismissal of Frost’s due process claim on
other grounds, and because the district court did not address
Frost’s exculpatory evidence argument below, we leave this
argument for the district court to resolve in the first instance.

20a
incomplete.” 426 F.3d at 554. In such an extraordinary
case, we said, “it will be impossible for a district court
to determine whether the jury could reasonably find
for the plaintiff, and thus whether there are any
genuine issues of material fact, without making some
assessment of the plaintiff’s account.” Id.
Relying on our decision in Jeffreys, the district
court concluded that multiple aspects of Vega’s declaration rendered his allegations incredible. First, the
district court observed that “[t]he scant, three-page
declaration . . . was signed more than three years
after plaintiff and his counsel filed this instant action,
six months after the discovery period concluded, and
two months after defendants filed their summary
judgment motion.” Frost, 2019 WL 1382323, at *8.
More significantly, the district court noted that Vega’s
declaration “omits the undisputed and determinative
fact that Vega’s attorney and an ADA were present at
his interview with the detectives.” Id. The district
court emphasized with respect to this latter point that
“Vega’s assertion, if true, would mean that the two
attorneys present during the interview, in violation of
their ethical and legal obligations, condoned, countenanced and permitted the detectives to coerce Vega
into testifying falsely.” Id.
On appeal, Frost argues that the district court erred
in applying Jeffreys beyond its scope. Frost contends
that Vega’s declaration was “consistent and uncomplicated,” Appellant’s Br. 21 (quoting Bellamy v. City of
New York, 914 F.3d 727, 746 (2d Cir. 2019)), unlike the
plaintiff’s self-serving testimony in Jeffreys. Frost also
asserts that Vega’s declaration is corroborated by his
initial inability to identify Chapman’s shooter when
detectives first questioned him on July 6, 2010. And
while Frost acknowledges that Vega’s “declaration

21a
implies that Vega’s attorney and the ADAs acted
unethically,” he notes that “it is hardly unheard-of for
prosecutors to act overzealously in pursuit of a
conviction or for a witness’ counsel to go along with
such overzealousness if it benefits his client.” Id. at 23.
In response, defendants offer several reasons why
they believe the district court correctly disregarded
Vega’s “eleventh-hour declaration.” Appellees’ Br. 24.
As relevant here, defendants argue that the declaration is inconsistent with Vega’s initial police interviews, which did not clearly exculpate Frost or inculpate the individual (presumably McLaurin) who was
wearing the white shirt. Defendants also contend that
there is an internal inconsistency between Vega’s
acknowledgement, on the one hand, that he initiated
contact with the Bronx District Attorney’s Office in
January 2011, and his allegation, on the other, that he
was coerced into identifying Frost at the ensuing
interview. Likewise, defendants assert that Vega’s
statement in his declaration that “he ‘refused to testify
against [Frost] because [he] did not want to continue
a lie’” is unsupported by the record given that Vega
“made no effort on the witness stand to recant
his original identification of Frost as the shooter.” Id.
at 27 (quoting J.A. 1603 ¶ 20) (alterations in original).
And finally, defendants reiterate the district court’s
concern that Vega’s declaration alleges ethical and
legal violations by the attorneys present at his
January 2011 interview.
Although we are sympathetic to some of defendants’
criticisms, we nevertheless agree with Frost that the
district court extended Jeffreys too far. As we have
said, the Jeffreys exception is narrow, and it applies
only “in the rare circumstance where” a witness’s testimony is so problematic that no reasonable juror could

22a
credit it. Jeffreys, 426 F.3d at 554. Where, by contrast,
“there is a plausible explanation for discrepancies
in a [witness’s] testimony, the court considering a
summary judgment motion should not disregard the
later testimony because of an earlier account that
was ambiguous, confusing, or simply incomplete.” Id.
at 555 n.2. And “[i]n the ordinary case where a district
court is asked to consider the contradictory deposition
testimony [or declaration] of a fact witness, or where
the contradictions presented are not real, unequivocal,
and inescapable, the general rule remains that a
district court may not discredit a witness’s deposition
testimony [or declaration] on a motion for summary
judgment, because the assessment of a witness’s
credibility is a function reserved for the jury.” In re
Fosamax Prod. Liab. Litig., 707 F.3d 189, 194 n.4 (2d
Cir. 2013) (per curiam).
Here, Vega’s declaration presents us with an “ordinary case,” not a “rare circumstance.” It is true that
the document was introduced late in the proceedings
below and that the substance of Vega’s allegations is
somewhat meager. These deficiencies, however, are
not serious enough to render the declaration incredible
as a matter of law. Defendants cite prior decisions
from this Court for the proposition that “witnesses are
not permitted to raise a sham issue of fact by
submitting a blatantly manufactured affidavit that
contradicted a prior statement.” Appellees’ Br. 29
(citing Perma Research & Dev. Co. v. Singer Co., 410
F.2d 572, 578 (2d Cir. 1969)); see Hayes v. New York
City Dep’t of Corr., 84 F.3d 614, 619 (2d Cir. 1996). But
even assuming that the “sham issue of fact” doctrine
applies where the witness’s prior statements are
unsworn, years-old police interviews, Vega’s declaration is not sufficiently “manufactured” or contradictory
to bring it within the doctrine’s ambit.

23a
Contrary to defendants’ characterization, there is a
plausible explanation for any discrepancies between
Vega’s 2018 declaration and his earlier interviews
with law enforcement. Take Vega’s statement in 2018
that Frost did not kill Chapman. Obviously, this is
inconsistent with Vega’s identification of Frost as
the shooter during his January 2011 interview at the
Bronx District Attorney’s Office. But the inconsistency
between Vega’s earlier and later positions does not
make them irreconcilable. Instead, Vega’s declaration
offers a plausible account of his evolving story: in 2011,
he was facing a felony charge and wanted to make
a deal with prosecutors, and by 2018 he had changed
his mind and decided that he wanted to tell the truth.
To conclude, as we do, that the explanations are
plausible is not to say that we make any judgment as
to whether they will carry the day; we determine only
that this issue cannot be resolved at the summary
judgment stage.
We are conscious of the concerns raised by defendants and the district court that Vega’s declaration, if
true, describes ethical and legal violations by his
defense counsel and the assistant district attorney who
interviewed him. And we certainly have no reason to
think that such violations are anything but rare. But
we cannot conclude as a matter of law that allegations
of attorney misconduct are too implausible to create a
genuine dispute of material fact. Indeed, if we were to
adopt such a conclusion, entire categories of lawsuits
would be precluded from making it past summary
judgment.
Nor is Vega’s declaration irreconcilable with the two
initial interviews that he had with law enforcement on
the day of Chapman’s murder. As noted above, Vega
first told detectives that he did not know who shot

24a
Chapman or where the shots came from, and he later
said that the shots came from Frost’s apartment
building and that a man wearing a white shirt was
standing in the doorway from which the shots came.
Defendants argue that these statements contradict
Vega’s more definitive assertion in his declaration
that the man in the white shirt was the shooter. But
we see no necessary contradiction—let alone a contradiction that is “real, unequivocal, and inescapable,”
Fosamax, 707 F.3d at 194 n.4—between Vega’s
statement in 2018 that the man in the white shirt
was the shooter and his statement in 2010 that the
man in the white shirt was standing in the building
doorway from which the shots were fired. And while
there may be inconsistencies between Vega’s first and
second interviews in the hours immediately following
Chapman’s murder, these discrepancies at most raise
garden variety credibility issues regarding Vega’s initial account. They do not provide grounds for the
district court to disregard Vega’s later declaration on
a motion for summary judgment. See Jeffreys, 426
F.3d at 555 n.2.
Finally, we are not persuaded by defendants’ argument that Vega’s declaration was properly discredited
based on its internal inconsistencies and lack of support in the record. Defendants suggest that Vega
would not have initiated contact with the Bronx District Attorney’s Office in January 2011 if he had not
already intended to identify Frost. And they imply
that Vega would have recanted his false identification
at Frost’s trial if he had really been motivated by a
desire to tell the truth. But these assumptions, while
plausible, are not self-evident, and they certainly are
not fatal to the credibility of Vega’s declaration. There
are any number of benign or malign explanations for
the purported deficiencies raised by defendants, and it

25a
is not the role of the district court to choose among
them at the summary judgment stage. Instead, as
even Frost acknowledges, the most appropriate use
for defendants’ criticisms is as “fodder for crossexamination of Vega at trial.” Reply Br. 6.
We conclude, therefore, that Vega’s declaration does
not present the kind of “rare circumstance” contemplated by Jeffreys, and that the district court erred in
discrediting it.11 Defendants nevertheless argue that
we should affirm the district court’s dismissal of
Frost’s due process claim because, even assuming that
Vega’s identification was coerced, Frost has failed to
raise a triable issue as to whether the identification
resulted in a deprivation of his liberty. Specifically,
defendants contend that “there was sufficient evidence
to prosecute Frost without Vega’s identification” and
that Frost “has never argued that, but for Vega’s
identification, he would not have been indicted and
incarcerated during the course of his trial.” Appellees’
Br. 40.
Defendants’ argument falls short for two reasons.12
First, as noted above, probable cause is not a defense
11

In our analysis, we have assumed without deciding that
Jeffreys applies to the testimony of non-party fact witnesses.
Because we conclude that it was error to discredit Vega’s declaration even under the Jeffreys standard, we need not address
Frost’s broader contention that district courts may never discredit non-party fact witness testimony at the summary judgment stage.
12

As with Frost’s malicious prosecution claim, defendants do
not raise a qualified immunity defense. Even if they did, however,
such a defense would fail, as “there is a clearly established
constitutional right not to be deprived of liberty as a result of
the fabrication of evidence by a government officer acting in an
investigatory capacity.” Garnett, 838 F.3d at 276.

26a
to a fair trial claim based on the fabrication of evidence. See Garnett, 838 F.3d at 277–78. Instead, even
if “a privileged arrest accounted for at least some
portion of the deprivation of [a § 1983 plaintiff’s]
liberty,” the plaintiff may still “suffer[] a deprivation
of liberty as a result of [an] officer’s fabrication.” Id. at
277. It is therefore irrelevant that “there was sufficient evidence to prosecute Frost without Vega’s
identification.” Appellees’ Br. 40.
Second, defendants miss the mark in their assessment that Frost has not raised a triable issue regarding causation. As we have explained, a “prosecutor’s
decision to pursue charges rather than to dismiss [a]
complaint without further action[] may depend on
the prosecutor’s . . . assessment[] of the strength of
the case, which in turn may be critically influenced by
fabricated evidence.” Garnett, 838 F.3d at 277. Here, a
reasonable jury could have found that Vega’s
identification “critically influenced” the decision to
prosecute Frost. See id. It is undisputed that defendants knew the day after Chapman’s shooting that
Frost was standing with McLaurin in the stairwell
from which the shots were fired and that Frost had
been assaulted the night before by Chapman’s friends.
For six months, however, defendants took no action,
and it was only after Vega identified Frost as the
shooter that Frost was arrested and prosecuted. This
sudden change suggests that Vega’s identification was
influential. And while it is true that McLaurin also
identified Frost between the time of Vega’s interview
and Frost’s arrest, a reasonable jury could have found
that the decision to prosecute Frost would have been
different if McLaurin, who was Frost’s fellow suspect,
was the only person to identify him. This is all that is
necessary to sustain Frost’s due process claim.

27a
The dissent would hold otherwise on this point. The
dissent notes, as we do, that independent evidence
was sufficient to create probable cause for Frost’s
pretrial detention. The dissent also finds great significance in the fact that Vega’s purportedly coerced
identification did not taint Frost’s trial itself, because
Vega refused to testify that Frost was the shooter. The
dissent thus argues that Frost’s “fair trial” claim
under the Due Process Clause fails as a matter of law.
We respectfully think our precedents are to the
contrary. Notwithstanding the nomenclature, a criminal defendant’s right to a fair trial protects more than
the fairness of the trial itself. Indeed, a criminal
defendant can bring a fair trial claim even when no
trial occurs at all. Our decision in Ricciuti is illustrative in this respect. One of the plaintiffs there, Alfred
Ricciuti, was arrested and charged with second-degree
assault after a post-Yankees-game altercation. 124
F.3d at 125–26. Ricciuti alleged that one of the
defendant police officers, Lt. Robert Wheeler, fabricated a confession statement and forwarded it to
the Bronx district attorney, who subsequently added a
charge against Ricciuti for second-degree aggravated
harassment. Id. at 126.
Although all charges against Ricciuti were dismissed before trial, id. at 127, we held that there was
a genuine issue of fact as to whether Lt. Wheeler and
other defendant officers had knowingly fabricated and
forwarded a false confession to prosecutors, id. at 129–
30. As noted above, we explained that “[w]hen a police
officer creates false information likely to influence a
jury’s decision and forwards that information to
prosecutors, he violates the accused’s constitutional
right to a fair trial, and the harm occasioned by such
an unconscionable action is redressable in an action

28a
for damages under 42 U.S.C. § 1983.” Id. at 130.
And we concluded that “a reasonable jury could find,
based on the evidence, that defendants . . . violated
[Ricciuti’s] clearly established constitutional rights by
conspiring to fabricate and forward to prosecutors a
known false confession almost certain to influence a
jury’s verdict.” Id.
The dissent nevertheless argues that, because the
charges against Ricciuti were dismissed before trial,
his claim is more accurately described as a malicious
prosecution claim under the Fourth Amendment,
rather than a fair trial claim under the Due Process
Clause. Post at 4–5. According to the dissent, the real
constitutional claim in Ricciuti was that, although
there was probable cause to believe an assault had
occurred, there was no probable cause “for magnifying
the charge to a crime of bias, which was the only basis
for keeping plaintiffs detained.” Id. at 5. However,
this interpretation is hard to square with our decision
in Ricciuti itself, which analyzed the question of
probable cause at length in the context of Ricciuti’s
other claims, see 124 F.3d at 127–29, 130–31, but did
not so much as mention it in the context of his fair
trial claim, id. at 129–30. We cannot conclude that
the Ricciuti decision “mislabel[ed] the claim it was
upholding.” Post at 5. Rather, the court employed an
entirely different mode of analysis than the maliciousprosecution framing that the dissent now urges.
We respectfully believe that the dissent’s interpretation of our fair trial precedent is also foreclosed by
Zahrey v. Coffey, 221 F.3d 342 (2d Cir. 2000), where
the court again recognized a fair trial claim in a similar circumstance. The plaintiff there, Zaher Zahrey,
was prosecuted for conspiracy to commit robberies,
among other counts, and was detained without bail for

29a
eight months. Id. at 346. In his § 1983 suit against
various police officers and prosecutors, Zahrey alleged
that the defendants had deprived him of liberty by
coercing two witnesses, Lisa Rivera and Sidney Quick,
to testify falsely against Zahrey before a grand jury,
thereby resulting in his pretrial detention. Id. at 345–
46.
On these facts, we held that Zahrey had adequately
stated a claim under § 1983 for, inter alia, denial of
his “right to a fair trial under the Fifth, Sixth and
Fourteenth Amendments.” Id. at 346. Unlike the
plaintiff in Ricciuti, Zahrey eventually proceeded to
trial before a jury in the Eastern District of New York,
whereupon he was acquitted on all counts. Id. But our
analysis of Zahrey’s Due Process claim focused not
on the events at his trial, but on the deprivation of
liberty resulting from the purportedly coerced grand
jury testimony. See id. at 348–49.
Finally, in Garnett, the court expressly rejected the
dissent’s argument, post at 4–7, that a challenge to
the use of fabricated evidence pre-trial “is only cognizable as a claim for malicious prosecution or for
false arrest under the Fourth Amendment, and not as
an independent fair trial claim.” 838 F.3d at 278.
Rather, we explained that “fair trial claims cover kinds
of police misconduct not addressed by false arrest or
malicious prosecution claims,” and that therefore
“probable cause, which is a Fourth Amendment concept, should not be used to immunize a police officer
who violates an arrestee’s non-Fourth Amendment
constitutional rights.” Id.13

13

To be sure, in Garnett itself, the defendant stood trial. 838
F.3d at 270. But we never suggested that fair trial claims are
limited to such cases; to the contrary, we repeatedly emphasized

30a
Taken together, then, Garnett, Zahrey, and Ricciuti
establish that the (perhaps imprecisely named) fair
trial right protects against deprivation of liberty
that results when a police officer fabricates and forwards evidence to a prosecutor that would be likely to
influence a jury’s decision, were that evidence presented to the jury. See Zahrey, 221 F.3d at 355 (“It is
firmly established that a constitutional right exists
not to be deprived of liberty on the basis of false
evidence fabricated by a government officer.”). And
we have expressly distinguished this right from the
separate, although related, right not to be convicted
based on the use of false evidence at trial. See id. (“It
has also long been established that a prosecutor who
knowingly uses false evidence at trial to obtain a
conviction acts unconstitutionally.”).
In the instant case, Frost raises a genuine dispute
of material fact as to whether he was thus deprived of
his liberty. As explained above, there is a triable
question as to whether Vega’s identification of Frost
was coerced. Similarly, there is a triable question as
to whether Vega’s identification would likely have
influenced the jury at Frost’s criminal trial given that
Vega, unlike McLaurin, was not Frost’s fellow suspect.
These two facts, in turn, create a genuine dispute as
to whether Vega’s identification “critically influenced”
the decision to prosecute Frost, Garnett, 838 F.3d at
277, thereby resulting in a deprivation of his liberty.
that the elements of a fair trial claim are only that the officer
fabricated information that would be likely to influence a jury’s
verdict, forwarded the information to prosecutors, and thereby
deprived the defendant of liberty. Id. at 279. And we based this
rule largely on Ricciuti, id. at 277, 279–80, which, as already
discussed, did not involve the presentation of false evidence at
trial.

31a
Dufort v. City of New York does not compel a
different result. The plaintiff’s contention there was
that the defendants “misrepresented or withheld key
evidence at his criminal trial.” 874 F.3d 338, 354 (2d
Cir. 2017) (emphasis added). The court construed the
plaintiff’s claim as a “due process claim [that] rests
[on] the right to have one’s case tried based on an
accurate evidentiary record that has not been
manipulated by the prosecution.” Id. at 355. Accordingly, we held that the plaintiff’s claim failed as a
matter of law because the defendants’ attempts to
distort the record at his criminal trial had failed. Id.
Concededly, it is undisputed here that Vega’s allegedly
coerced identification of Frost could not have
“distort[ed] the record” at Frost’s trial, id., because
Vega did not repeat this identification in his trial
testimony. But Frost, unlike the plaintiff in Dufort,
does not ground his due process claim in allegations
that the defendants attempted to distort the record at
his criminal trial; instead, he grounds his claim in
allegations that the defendants fabricated evidence
much earlier in the process and forwarded that
evidence to prosecutors, thereby depriving Frost of his
liberty. Dufort did not question the validity of such
claims; to the contrary, it recognized, as did Zahrey,
that the right “not to be deprived of liberty as a result
of the fabrication of evidence by a government officer
acting in an investigatory capacity” is distinct from the
right not to be tried based on “a distorted evidentiary
record being presented to the jury.” Id. at 354–55.
It is true that Dufort states that “[m]ere attempts to
withhold or falsify evidence cannot form the basis for
a § 1983 claim for a violation of the right to due process
when those attempts have no impact on the conduct of
a criminal trial.” Id at 355. But this characterization
must be read in light of the claim presented in that

32a
case, which, again, was directed exclusively to the
presentation of evidence at trial. We do not think
Dufort can be read to hold that no due process claim
based on the falsification of evidence can be maintained unless the evidence affects the ultimate criminal trial. Such a holding would be inconsistent with
Zahrey—a case on which Dufort relies, id. at 354–55—
as well as with Ricciuti.14
Because we conclude that there is a triable issue as
to whether defendants coerced Vega into falsely identifying Frost, and as to whether Vega’s identification
resulted in Frost’s prosecution, Frost’s due process
claim should not have been dismissed.15 To be clear,
we offer no view as to the ultimate outcome. We conclude only that there are triable issues of fact such that
resolution at summary judgment is not appropriate.
IV. Excessive Force
Along with safeguarding a criminal defendant’s
right to a fair trial, “the Due Process Clause protects a
14

The Supreme Court’s holding in Manuel v. City of Joliet, 137
S. Ct. 911 (2017), relied upon by the dissent, post at 6–8, does not
compel a different result. In Manuel, the Supreme Court held
that a § 1983 plaintiff could challenge his pretrial detention based
on purportedly fabricated evidence under the Fourth Amendment, even after a judge determined that this evidence constituted probable cause. 137 S. Ct. at 914–15. But just as a Fourth
Amendment claim survives the initiation of “legal process,” id. at
914, our precedents establish that a fair trial claim under the Due
Process Clause may accrue before the trial itself. Accordingly, the
holding of Manuel does not preclude Frost’s fair trial claim.
15

As noted above, the district court on remand should address
Frost’s argument that defendants also deprived him of due process by failing to forward exculpatory evidence to prosecutors. In
addition, the district court may wish to clarify which defendants
remain implicated, at this stage in the litigation, by Frost’s due
process claim.

33a
pretrial detainee from the use of excessive force that
amounts to punishment.” Graham v. Connor, 490 U.S.
386, 395 n.10 (1989). An officer’s actions can amount
to punishment if they are taken with “an expressed
intent to punish.” Bell v. Wolfish, 441 U.S. 520, 538
(1979). But even “in the absence of an expressed intent
to punish, a pretrial detainee can nevertheless prevail
by showing that the actions are not rationally related
to a legitimate nonpunitive governmental purpose or
that the actions appear excessive in relation to that
purpose.” Kingsley v. Hendrickson, 135 S. Ct. 2466,
2473 (2015).
To determine whether an officer used excessive
force, the factfinder must apply an “objective reasonableness” standard that “turns on the facts and circumstances of each particular case.” Id. This standard
should be applied “from the perspective and with the
knowledge of the defendant officer,” id. at 2474, and it
should account for such factors as “the relationship
between the need for the use of force and the amount
of force used; the extent of the plaintiff’s injury; any
effort made by the officer to temper or to limit the
amount of force; the severity of the security problem at
issue; the threat reasonably perceived by the officer;
and whether the plaintiff was actively resisting,” id. at
2473. The factfinder must also “take account of the
legitimate interests in managing a jail, acknowledging
as part of the objective reasonableness analysis that
deference to policies and practices needed to maintain
order and institutional security is appropriate.” Id. at
2474.
“Additionally, an officer enjoys qualified immunity
and is not liable for excessive force unless he has
violated a clearly established right, such that it would
have been clear to a reasonable officer that his conduct

34a
was unlawful in the situation he confronted.” Id.16
“Use of excessive force is an area of the law in which
the result depends very much on the facts of each case,
and thus . . . officers are entitled to qualified immunity
unless existing precedent squarely governs the specific
facts at issue.” Kisela v. Hughes, 138 S. Ct. 1148, 1153
(2018) (per curiam). “Precedent involving similar
facts can help move a case beyond the otherwise hazy
border between excessive and acceptable force and
thereby provide an officer notice that a specific use of
force is unlawful.” Id.
The district court dismissed Frost’s excessive force
claims arising out of the incidents that occurred on
October 9, 2012, January 16, 2013, and July 16, 2013.
Frost v. City of New York, No. 15 Civ. 4843 (NRB),
2019 WL 1382323, at *10–11 (S.D.N.Y. Mar. 27,
2019).17 Frost challenges each of these decisions on
appeal. For the reasons below, we agree with Frost
that the district court erred in dismissing the claims
arising out of the October 9 and July 16 incidents, but
we conclude that dismissal of the claim arising out of
the January 16 incident was warranted.
A. October 9, 2012 Incident
Beginning with the first incident, the following
facts are undisputed. On October 9, 2012, Frost was
brought to Bronx Supreme Court for an attorney visit,
and while there he was escorted by correction officers
16

In contrast with Frost’s malicious prosecution and due process claims, defendants have raised a qualified immunity defense
to Frost’s excessive force claims.
17

The district court also held that Frost failed to create a
triable issue with respect to an incident that took place on July
25, 2012, see Frost, 2019 WL 1382323, at *9–10, but Frost does
not appeal that ruling.

35a
Jemmott and Joye. At some point, Frost said to
Jemmott, “I should spit in your fuckin’ face.” J.A.
609:16–17.18 Jemmott then took Frost to the ground,
and either Jemmott or Joye kicked Frost in the ribs.
Jemmott and Joye also dragged Frost on the ground
by his leg shackles, and Frost was later taken to
a medical clinic, where he was diagnosed with a
ruptured eardrum and bruising on his forehead and
cheek.
In dismissing Frost’s claim, the district court
explained that Frost “had established himself as a
violent inmate whose threats against DOC officers
needed to be taken seriously.” Frost v. City of New
York, No. 15 Civ. 4843 (NRB), 2019 WL 1382323, at
*10 (S.D.N.Y. Mar. 27, 2019). And the district court
approvingly cited other decisions in which district
courts had dismissed excessive force claims brought
by inmates who had spit or attempted to spit on
correction officers. Id. (citing Coleman v. Hatfield, No.
13-CV-6519-FPG, 2016 WL 2733522 (W.D.N.Y. May
10, 2016); Smolen v. Dildine, No. 11-CV-6434-CJS,
2014 WL 3385209 (W.D.N.Y. July 9, 2014); Bonet
v. Shaw, 669 F. Supp. 2d 300 (W.D.N.Y. 2009)). The
district court stated, moreover, that Frost had “suffered relatively minor injuries in the course of his
struggle with” Jemmott and Joye. Id. at *10 n.28. For
these reasons, the district court concluded, Jemmott
18

When asked during his deposition whether he had said that
he should spit in Jemmott’s face, Frost responded, “I don’t—I
don’t recall saying that, but—I never spit in his face, but if I was
mad, I possibly did.” J.A. 1552:23–24. On appeal, Frost argues
that this equivocal response creates a genuine dispute as to
whether he made the comment to Jemmott. We disagree, but for
the reasons discussed in the main text, we nevertheless conclude
that Frost has created a genuine dispute as to whether Jemmott
and Joye used excessive force during the October 9 incident.

36a
and Joye “used objectively reasonable force to protect
themselves from plaintiff’s threat.” Id. at *10.
After reviewing the record below, we respectfully
disagree with the district court’s reasoning in several
respects. First, we think it is at least questionable
at this stage whether Frost’s statement can be characterized as a “threat.” Notably, Jemmott testified
only that Frost said that he “should” spit on Jemmott.
J.A. 609:16. Although it is possible that this statement
would have been interpreted as a threat—that Frost
was planning to spit on Jemmott—it is also possible
that it would have been interpreted as an insult or an
expression of disdain—that Frost wanted to spit on
Jemmott, or that he believed he would be justified in
spitting on Jemmott. Because we are “required to
resolve all ambiguities and draw all permissible
factual inferences in favor of the party against
whom summary judgment is sought,” Sec. Ins. Co. of
Hartford v. Old Dominion Freight Line, Inc., 391 F.3d
77, 83 (2d Cir. 2004), we must assume at this stage in
the litigation that a reasonable officer in Jemmott’s
position would have adopted the latter interpretation.
For similar reasons, we find the instant case distinguishable from those cited by the district court in
which inmates spat or attempted to spit on correction
officers.19 During his deposition, Frost categorically
19

The instant case is also distinguishable from Berman v.
Williams, No. 17cv2757 (JGK), 2019 WL 4450810 (S.D.N.Y. Sept.
17, 2019). Defendants cite Berman for the proposition that
summary judgment is appropriate where officers use force in
response to an inmate’s threat to spit. But the court in Berman
did not address the merits of the excessive force claim at issue,
and it granted summary judgment in favor of defendants only
because they were not alleged to have been personally involved
in the spitting incident. Id. at *3–5.

37a
denied attempting to spit on Jemmott. And while
defendants argue that “it is undisputed that . . . Frost
had ‘bec[o]me combative’ and ‘turned his body towards
[Jemmott],’” Appellees’ Br. 45 (quoting J.A. 609:15–16)
(alterations in original), Frost testified to the contrary
that any resistance to Jemmott was caused by physical
restraints that limited Frost’s mobility.20 Even assuming, then, that the cases cited by the district court
were correctly decided, there is a genuine dispute here
as to whether Frost either spat or attempted to spit
on Jemmott.
Finally, we differ with the district court’s suggestion
that Frost’s injuries were minor. As noted above, Frost
was diagnosed not only with multiple facial bruises
following the October 9 incident, but also with a
ruptured eardrum. Defendants argue that Frost had
previously been diagnosed with a ruptured eardrum
the year prior and that he therefore failed to show that
Jemmott and Joye caused him a new injury. But this
is pure speculation, and absent undisputed medical
evidence to the contrary—which defendants have not
offered—a reasonable jury could find that Jemmott
and Joye were responsible for causing a new rupture.
20

Defendants argue that Frost is estopped from denying that
he threatened Jemmott because Frost pled guilty to creating a
disturbance during the October 9 incident. But defendants have
put forth no evidence that Frost represented, in connection with
his plea, that he had threatened Jemmott. Instead, defendants
cite to a portion of Frost’s deposition in which Frost said he
believed he had pled guilty to creating a disturbance or refusing
a direct order. Notably, Frost also said that he believed he had
not pled guilty to assaulting a staff member. And on appeal, Frost
points to documents in the record that suggest that he never
entered a plea at all in connection with the October 9 incident,
but that he was instead found guilty after failing to attend
his disciplinary hearing, and that even this finding was later
expunged.

38a
We are left, then, with the following question: assuming that a reasonable officer would have interpreted
Frost’s spitting statement as an insult rather than a
threat, and assuming that Frost was not actively
resisting Jemmott and Joye, was it excessive for
the officers to tackle, kick, and drag Frost, thereby
bruising his face and rupturing his eardrum? We
conclude that it was.21 Indeed, while we are mindful to
view the incident with “deference to [the] policies and
practices needed to maintain order and institutional
security,” Kingsley v. Hendrickson, 135 S. Ct. 2466,
2474 (2015), our caselaw makes clear that it is unconstitutional for officers to strike an individual who is
compliant and does not pose an imminent risk of harm
to others, see, e.g., Rogoz v. City of Hartford, 796 F.3d
236, 247–48 (2d Cir. 2015) (plaintiff created triable
issue regarding excessive force based on evidence that
defendant jumped on his back while plaintiff was
compliant and lying prone on the ground); Sims v.
Artuz, 230 F.3d 14, 22 (2d Cir. 2000) (plaintiff stated
claim for excessive force where he alleged, inter alia,
that defendants punched him in the face while plaintiff’s arms were shackled); Bellows v. Dainack, 555
F.2d 1105, 1106 & n.1 (2d Cir. 1977) (plaintiff stated
claim for excessive force where he alleged that defendant punched him in the ribs while plaintiff was seated
21

In addition to raising the points above, defendants resist
this conclusion by arguing that Frost did not sustain significant
injuries from being kicked in the ribs or dragged across the floor.
But even assuming this is true, the extent of an inmate’s injuries,
while relevant to the excessive force inquiry, is not dispositive.
Cf. Wilkins v. Gaddy, 559 U.S. 34, 38 (2010) (recognizing, in the
Eighth Amendment context, that “[a]n inmate who is gratuitously beaten by guards does not lose his ability to pursue an
excessive force claim merely because he has the good fortune to
escape without serious injury”).

39a
in the back of a police car). This is true even where
an excessive force plaintiff has a history of aggressive
behavior,22 as an alternative rule would place few
restrictions on officers’ treatment of individuals with
extensive disciplinary records.
In reaching this conclusion, we of course take no
position on the ultimate issue whether Jemmott and
Joye used excessive force in subduing Frost. We hold
only that the undisputed facts are insufficient at this
stage in the litigation to support a ruling in favor of
defendants. Moreover, as just noted, it was clearly
established at the time of the incident that an officer
could not strike an individual who was compliant and
did not pose an imminent risk of harm to others.
Because a reasonable jury could find that Frost was
neither threatening nor resisting Jemmott and Joye
at the time of the incident, summary judgment on
defendants’ qualified immunity defense is also unwarranted. See Hemphill v. Schott, 141 F.3d 412, 418 (2d
Cir. 1998) (“[S]ummary judgment based either on the
merits or on qualified immunity requires that no
dispute about material factual issues remain . . . .”).23

22

It is unclear from the record whether Jemmott and Joye
were aware of Frost’s disciplinary history. Although there is evidence that Red ID inmates like Frost sometimes wore identifying
restraints, there appears to be no indication as to whether Frost
was wearing such restraints on October 9. Jemmott testified
during his deposition, moreover, that he did not recall any
previous encounters with Frost.
23

Because we hold that there is a triable issue as to whether
Jemmott and Joye used excessive force during the October 9
incident, we do not address the relevance, if any, of Frost’s arguments regarding non-party Correction Officer Williams.

40a
B. January 16, 2013 Incident
Although we conclude that triable issues prevent
summary judgment on Frost’s excessive force claim
arising out of the October 9 incident, we agree with the
district court’s decision to dismiss the claim arising
out of the January 16 incident. As noted above, Frost
alleges that defendants used excessive force to extract
him after he allegedly secreted a weapon in his anal
cavity. The district court granted summary judgment
in favor of defendants after deciding that video footage
of the incident showed that defendants used only
reasonable force. See Frost v. City of New York, No. 15
Civ. 4843 (NRB), 2019 WL 1382323, at *11 (S.D.N.Y.
Mar. 27, 2019). The district court explained, moreover,
that Frost suffered de minimis injuries during the
extraction. Id.
On appeal, Frost argues that the district court erred
in its assessment of the record. As a preliminary
matter, Frost asserts that there is a dispute as to
whether he secreted a weapon in his anal cavity, or
whether instead the weapon was planted on him by
defendants. Even assuming he did secrete the weapon,
Frost contends, defendants used excessive force by
continuing to kick and punch him after he had been
subdued.
We disagree with both of these arguments. First, as
defendants note, Frost is judicially estopped from
denying that he secreted the weapon. “Judicial estoppel prevents a party from asserting a factual position
in a legal proceeding that is contrary to a position
previously taken by that party in a prior legal
proceeding.” Robinson v. Concentra Health Servs.,
Inc., 781 F.3d 42, 45 (2d Cir. 2015). Here, Frost was
indicted in connection with the January 16 incident,
and he pled guilty to promoting prison contraband in

41a
the second degree. As part of his allocution, Frost
specifically admitted to possessing the weapon, and
the court adopted that position in accepting his
guilty plea. See Kuar v. Mawn, No. 08-CV-4401 (JFB)
(ETB), 2011 WL 838911, at *6 (E.D.N.Y. Mar. 4, 2011)
(“[U]nder the doctrine of judicial estoppel, the Court
will preclude plaintiff from taking factual positions in
this case which are directly contrary to statements
that he made in connection with his plea and that were
adopted by the court which accepted his plea.”). As a
result, Frost cannot now maintain that the weapon
was planted on him by defendants.
Furthermore, we disagree with Frost’s contention
that defendants used excessive force during the
extraction. As video footage of the incident makes
clear, Frost resisted the officers and tried to prevent
them from entering the area where he was located by
holding the door shut with his arm. Frost then struggled with the officers as they tried to restrain him.
Given “the severity of the security problem at issue;
the threat reasonably perceived by the officer[s]; and
[the fact that Frost] was actively resisting,” Kingsley
v. Hendrickson, 135 S. Ct. 2466, 2473 (2015), defendants were justified in using nontrivial amounts of
force. And although perhaps the struggle between
Frost and the officers could have been gentler, the
video footage does not suggest that the officers’ actions
could reasonably be viewed as excessive. See Hudson
v. McMillian, 503 U.S. 1, 9 (1992) (“Not every push
or shove, even if it may later seem unnecessary in the
peace of a judge’s chambers, violates a [detainee]’s
constitutional rights.”). Accordingly, we conclude that
the district court was correct to dismiss Frost’s claim
arising out of the January 16 incident.

42a
C. July 16, 2013 Incident
Finally, we consider Frost’s excessive force claim
arising out of the July 16 incident, during which Frost
was extracted from the CPSU recreation yard after
he and eighteen other inmates refused to come inside.
As with the January 16 incident, the district court
granted summary judgment in favor of defendants
based on its assessment that Frost’s injuries were
minor and that the video footage showed as a matter
of law that defendants used reasonable force to extract
him. Frost v. City of New York, No. 15 Civ. 4843 (NRB),
2019 WL 1382323, at *11 (S.D.N.Y. Mar. 27, 2019).
After reviewing the footage, we agree with the district
court that defendants acted reasonably in restraining
Frost initially, but we hold that a triable issue remains
as to whether members of the extraction team used
excessive force after Frost was subdued.
We reject at the outset Frost’s argument that it was
inappropriate for defendants to extract him from the
recreation yard because he and his fellow inmates
were trying to secure a meeting with a senior prison
official. It is undisputed that the inmates refused to
leave the recreation yard after their allotted hour of
recreation time was over. It is also undisputed that
the correctional facility is not secure if inmates do not
return from the yard. And it is further undisputed that
correction officers spent hours trying to convince the
inmates to come inside before assembling an extraction team. Given that we “must take account of the
legitimate interests in managing a jail, acknowledging
as part of the objective reasonableness analysis that
deference to policies and practices needed to maintain
order and institutional security is appropriate,” Kingsley
v. Hendrickson, 135 S. Ct. 2466, 2474 (2015), we con-

43a
clude that Frost has not created a genuine dispute as
to whether extraction was appropriate.
Furthermore, even if extraction were inappropriate,
Frost’s actions justified defendants in using a considerable amount of responsive force. As noted above,
video footage of the incident shows that Frost prepared
for the extraction team’s arrival by positioning himself
in a charging stance and using his ripped clothing
as elbow pads and a mouth guard. When the extraction
team opened the door to his pen, Frost charged the
officers immediately and ended up on top of one of
them. And although the officers managed to restrain
Frost, they did so only after a vigorous struggle. As
with the January 16 incident, this struggle was
violent, but we agree with the district court’s assessment that no reasonable jury could find that defendants’ initial use of force was excessive. Frost, 2019 WL
1382323, at *11.
We are less sure, however, about the propriety of
defendants’ conduct after Frost was subdued. As noted
above, it was clearly established at the time of the
incident that an officer cannot strike an individual
who is compliant and does not pose an imminent risk
of harm to others. Cf. Rogoz v. City of Hartford, 796
F.3d 236, 245 (2d Cir. 2015) (“[S]ummary judgment
has been found inappropriate in a case involving the
use of gratuitous force beyond what was necessary to
subdue.”). Frost argues on appeal that “he was pummeled and kicked after the extraction team subdued
him and restrained his legs.” Appellant’s Br. 47. And
although defendants deny these allegations, video
footage of the July 16 incident appears to show one of
the members of the extraction team repeatedly moving
his knee toward Frost’s head after Frost was
restrained. Moreover, other inmates can be heard in

44a
the background yelling for the officer to stop kicking
Frost in the head. Based on this footage, we believe
that there is a triable issue both as to whether the
officer used excessive force and as to whether qualified
immunity is warranted. We therefore conclude that
the district court erred in dismissing Frost’s claim
arising out of the July 16 incident.24
V. Municipal Liability
Under the Supreme Court’s decision in Monell v.
Department of Social Services, 436 U.S. 658 (1978),
local governments may be held liable in § 1983 actions.
“To establish liability under Monell, a plaintiff must
show that he suffered the denial of a constitutional
right that was caused by an official municipal policy or
custom.” Bellamy v. City of New York, 914 F.3d 727,
756 (2d Cir. 2019). “Monell does not provide a separate
cause of action for the failure by the government to
train its employees; it extends liability to a municipal
organization where that organization’s failure to train,
or the policies or customs that it has sanctioned, led to
an independent constitutional violation.” Segal v. City
of New York, 459 F.3d 207, 219 (2d Cir. 2006).
The district court dismissed Frost’s municipal
liability claims because it concluded that he had failed
to show the existence of any independent constitutional violations. Frost v. City of New York, No. 15 Civ.
24

On remand, the district court may be unable to ascertain the
identity of the officer in question, or of any other individual
defendants who can be held liable in connection with the July 16
incident. See Wright v. Smith, 21 F.3d 496, 501 (2d Cir. 1994) (“It
is well settled in this Circuit that personal involvement of defendants in alleged constitutional deprivations is a prerequisite to an
award of damages under § 1983.”). The district court may nevertheless consider evidence regarding the July 16 incident in
connection with Frost’s municipal liability claims.

45a
4843 (NRB), 2019 WL 1382323, at *12 (S.D.N.Y. Mar.
27, 2019). As discussed above, however, we hold that
Frost has created a triable issue regarding his due
process claim and two of his excessive force claims.
Because the district court is best suited to address the
merits of Frost’s municipal liability claims in the first
instance, we vacate the dismissal of those claims and
remand for further consideration in light of this
opinion. See Darnell v. Pineiro, 849 F.3d 17, 39 (2d Cir.
2017).
CONCLUSION
For the reasons above, we AFFIRM the district
court’s dismissal of Frost’s malicious prosecution
claim and his excessive force claim arising out of the
January 16 incident; we REVERSE the district court’s
dismissal of Frost’s due process claim and his excessive force claims arising out of the October 9 and July
16 incidents; we VACATE the district court’s dismissal
of Frost’s municipal liability claims; and we REMAND
the case for further proceedings consistent with this
opinion.

46a
KEARSE, Circuit Judge, dissenting in part:
I respectfully dissent from so much of the majority
opinion as holds that the district court erred in dismissing the claims of plaintiff Jarrett Frost against
defendants Richard Spennicchia and Joseph O’Neil
(the “Officers”) for the alleged denial of his “substantive due process” “right to a fair trial.” Majority Opinion ante at 22 (internal quotation marks omitted).
While I agree that the district court could not properly
grant summary judgment based on its assessment
of Leon Vega’s credibility, we are free to affirm a
judgment “on any ground which finds support in the
record, regardless of the ground upon which the trial
court relied,” Leecan v. Lopes, 893 F.2d 1434, 1439 (2d
Cir.), cert. denied, 496 U.S. 929 (1990); and I do not
see any genuine issue of material fact to be tried as to
the claim that the Officers denied Frost a fair trial.
There is of course a “constitutional right . . . to have
one’s case tried based on an accurate evidentiary
record that has not been manipulated by the prosecution.” Dufort v. City of New York, 874 F.3d 338, 355 (2d
Cir. 2017) (“Dufort”). But while Frost claims that the
Officers coerced Vega in 2011 to identify Frost as the
person who had shot Vega’s friend Mavon Chapman
and thereby fabricated evidence against Frost, that
alleged fabrication, if it occurred, could not have
denied Frost a fair trial because in 2014, “when [Frost]
was put on trial, Vega did not identify him” (Frost’s
brief on appeal at 22 (emphasis added)). As we have
squarely held, where the allegedly fabricated evidence
has not been replicated at trial, a due process claim of
denial of a fair trial “fail[s] as a matter of law.” Dufort,
874 F.3d at 355.
In Dufort, the due process claimant asserted that
police officers had denied him a fair criminal trial “by

47a
fabricating inculpatory evidence through an inappropriately suggestive lineup,” id. at 347; at his criminal
trial, however, the lineup witness stated the true,
limited nature of her identification, and we affirmed
the district court’s dismissal of the fair-trial claim “as
a matter of law” because the plaintiff had “not proved
that the evidentiary record at his criminal trial was
unfairly distorted,” id. “Mere attempts to withhold or
falsify evidence cannot form the basis for a § 1983
claim for a violation of the right to due process when
those attempts have no impact on the conduct of a
criminal trial.” Id. at 355 (citing Zahrey v. Coffey, 221
F.3d 342, 348-50 (2d Cir. 2000) (“Zahrey”)).
In the present case, the majority expressly
“[c]oncede[s]” that
it is undisputed . . . that Vega’s allegedly
coerced identification of Frost could not have
‘distort[ed] the record’ at Frost’s trial, [Dufort,
874 F.3d at 355], because Vega did not repeat
this identification in his trial testimony.”
Majority Opinion ante at 39 (emphasis mine). However, it seeks to distinguish Dufort by pointing out that
“Frost . . . does not ground his due process claim in
allegations that the defendants attempted to distort
the record at his criminal trial,” id. (emphasis mine).
The majority acknowledges that Frost
instead . . . grounds his claim in allegations
that the defendants fabricated evidence much
earlier in the process and forwarded that
evidence to prosecutors, thereby depriving
Frost of his liberty.
Id. But this recognition of the actual pretrial focus of
Frost’s claimed deprivation of liberty highlights my

48a
doctrinal difficulty with the majority’s reinstatement
of Frost’s so-called fair-trial claim.
“‘The first inquiry in any § 1983 suit’ is ‘to isolate
the precise constitutional violation with which [the
defendant] is charged,’” Graham v. Connor, 490 U.S.
386, 394 (1989) (quoting Baker v. McCollan, 443 U.S.
137, 140 (1979)). “‘[I]f a constitutional claim is covered
by a specific constitutional provision, such as the
Fourth . . . Amendment, the claim must be analyzed
under the standard appropriate to that specific provision, not under the rubric of substantive due process.’”
County of Sacramento v. Lewis, 523 U.S. 833, 843
(1998) (quoting United States v. Lanier, 520 U.S. 259,
272 n.7 (1997)); see, e.g., Graham v. Connor, 490 U.S.
at 395. Where a claim is “‘covered by’ the Fourth
Amendment,” “[s]ubstantive due process analysis is . . .
inappropriate.” County of Sacramento v. Lewis, 523
U.S. at 843.
Most recently, in Manuel v. City of Joliet, 137 S. Ct.
911 (2017), the Supreme Court confirmed that an
accused alleging the fabrication of evidence against
him “may challenge his pretrial detention on the
ground that it violated the Fourth Amendment,” id. at
914, and held that lower court decisions that the
petitioner should instead have “challenge[d] his pretrial confinement via the Due Process Clause,” id. at
916, were error, see id. at 919. The Supreme Court
noted that the petitioner, following a hearing to
determine whether there was probable cause for his
postarrest detention, see id. at 915, had been
held in jail for some seven weeks after a judge
relied on allegedly fabricated evidence to find
probable cause that he had committed a
crime. The primary question in this case is
whether Manuel may bring a claim based on

49a
the Fourth Amendment to contest the legality
of his pretrial confinement. Our answer
follows from settled precedent. The Fourth
Amendment, this Court has recognized, establishes “the standards and procedures” governing pretrial detention. See, e.g., Gerstein v.
Pugh, 420 U.S. 103, 111 (1975).
Manuel, 137 S. Ct. at 914 (emphasis mine).
There is no suggestion, of course, that the existence
of probable cause in compliance with the Fourth
Amendment would be a defense against the use of
fabricated evidence at trial.
[O]nce a trial has occurred, the Fourth Amendment drops out: A person challenging the
sufficiency of the evidence to support both a
conviction and any ensuing incarceration
does so under the Due Process Clause . . . .
Manuel, 137 S. Ct. at 920 n.8. But the “[Fourth]
Amendment, standing alone, guarantee[s] a fair and
reliable determination of probable cause as a condition
for any significant pretrial restraint,” Manuel, 137 S.
Ct. at 917-18 (internal quotation marks omitted)
(emphases mine); see id. at 918-19 (“The Fourth
Amendment prohibits government officials from detaining a person in the absence of probable cause. . . . That
can happen when the police hold someone without
any reason before the formal onset of a criminal
proceeding. But it also can occur when legal process
itself goes wrong—when, for example, a judge’s probablecause determination is predicated solely on a police
officer’s false statements. Then, too, a person is confined without constitutionally adequate justification.
Legal process has gone forward, but it has done

50a
nothing to satisfy the Fourth Amendment’s probablecause requirement.” (emphases added)).
The majority in the present case, in concluding
that summary judgment dismissing Frost’s substantive due process fair-trial claims was error, relies
principally on two cases, Zahrey and Ricciuti v. N.Y.C.
Transit Authority, 124 F.3d 123, 130 (2d Cir. 1997)
(“Ricciuti”). I disagree with the majority’s view that
the claim upheld in Zahrey was one for denial of a fair
trial; and while I do not disagree with Ricciuti’s
conclusion that the plaintiffs there had asserted a
viable constitutional claim for unwarranted prolonged
pretrial detention, I view its conclusion that the
plaintiffs had a viable due process claim for denial of
their right to a fair trial—in a case in which the
charges against them were dismissed without a trial—
as contrary to the Supreme Court’s instruction that
claims of pretrial deprivations should be analyzed
under the Fourth Amendment.
Zahrey:
In Zahrey, in which the plaintiff had been acquitted
after trial, we concluded that the plaintiff adequately
pleaded a claim for deprivation of his liberty prior
to trial, not a claim for denial of a fair trial. Although
the majority states that “Zahrey alleged that the
defendants had deprived him of liberty by coercing two
witnesses . . . to testify falsely against [him] before a
grand jury, thereby resulting in his pretrial detention,”
and states that “[o]n these facts, we held that Zahrey
had adequately stated a claim under § 1983 for . . .
denial of his ‘right to a fair trial,’” Majority Opinion
ante at 36 (quoting Zahrey, 221 F.3d at 346 (emphases
mine)), we did not find that he had stated a claim for
denial a fair trial. The above Zahrey language quoted
by the majority was part of our quotation of Zahrey’s

51a
own characterizations of his claims. And rather than
adopting his characterizations, we proceeded to “consider first the existence of the right Zahrey contends
was violated and the related issue of whether his
deprivation of liberty was a legally cognizable result
of [the prosecutor’s] alleged misconduct.” Zahrey, 221
F.3d at 348 (emphases added); see, e.g., Graham v.
Connor, 490 U.S. at 394.
In the ensuing section titled “Identifying the Right,”
Zahrey, 221 F.3d at 348-49, we concluded that Zahrey
alleged a deprivation of liberty, and that his “liberty
deprivation [wa]s the eight months he was confined,
from his bail revocation (after his arrest) to his
acquittal,” id.; see also id. at 349 (“the right at issue in
this case is appropriately identified as the right not to
be deprived of liberty as a result of the fabrication of
evidence by a government officer acting in an investigating capacity. Understood this way, we conclude
that the right at issue is a constitutional right, provided that the deprivation of liberty of which Zahrey
complains can be shown to be the result of [the prosecutor’s] fabrication of evidence.” (emphasis added)).
We did not say that Zahrey had adequately pleaded
a claim for denial of a fair trial. Indeed, focusing on the
absence of any right to recover for misconduct that has
not caused injury, we suggested that no claim for
denial of a fair trial would be cognizable where—as in
Zahrey—the criminal trial ended in an acquittal. See,
e.g., id. at 350 (“If, for example, a prosecutor places in
evidence testimony known to be perjured . . . , no
deprivation of liberty occurs unless and until the jury
convicts and the defendant is sentenced.” (emphasis
added)); id. at 348 (the constitutional right at issue
is not simply the “right not to have a prosecutor
manufacture false evidence. . . . The manufacture of

52a
false evidence, in and of itself, . . . does not impair
anyone’s liberty, and therefore does not impair anyone’s constitutional right.” (internal quotation marks
omitted) (emphases mine)).
Thus, we noted that “Justice Scalia foreshadowed
Zahrey’s claim when he observed: ‘I am aware of[ ]
no authority for the proposition that the mere
preparation of false evidence, as opposed to its use in a
fashion that deprives someone of a fair trial or
otherwise harms him, violates the Constitution,’”
Zahrey, 221 F.3d at 356 (quoting Buckley v.
Fitzsimmons, 509 U.S. 259, 281 (1993) (Scalia, J.,
concurring) (last emphasis in Zahrey; other emphases
mine)). And we noted that “Zahrey’s contention is
that” by the prosecutor’s misconduct “he ha[d] been
‘otherwise harm[ed].’” Zahrey, 221 F.3d at 356
(emphasis mine). The fabricated evidence had been
“used by introducing it in evidence before the grand
jury,” following which “an indictment was . . . returned
and Zahrey was later arrested,” id.; and it was further
used in opposition to Zahrey’s motion for bail, see id.
at 347. Accordingly, Zahrey’s “liberty deprivation
[wa]s the eight months he was confined, from his bail
revocation (after his arrest) to his acquittal . . . .” Id.
at 348 (emphasis added).
Ricciuti:
In Ricciuti, the plaintiffs, who had been arrested
for assault, claimed that police officers fabricated a
confession that indicated racial animus on the part of
one of the plaintiffs. Our opinion stated that
[l]ike a prosecutor’s knowing use of false evidence to obtain a tainted conviction, a police
officer’s fabrication and forwarding to prosecutors of known false evidence works an

53a
unacceptable “corruption of the truth-seeking
function of the trial process,”
124 F.3d at 130 (quoting United States v. Agurs, 427
U.S. 97, 104 (1976); and citing Giglio v. United States,
405 U.S. 150, 153 (1972); Mooney v. Holohan, 294 U.S.
103, 112 (1935)), and we added that
[w]hen a police officer creates false information likely to influence a jury’s decision
and forwards that information to prosecutors,
he violates the accused’s constitutional right
to a fair trial, and the harm occasioned by
such an unconscionable action is redressable
in an action for damages under 42 U.S.C.
§ 1983,
Ricciuti, 124 F.3d at 130 (emphasis added).
But Agurs, Giglio, and Mooney were all cases that
had been decided after trial. In Ricciuti, the criminal
charges had in fact been dismissed without a trial
because the officer who reported the allegedly fabricated confession repeatedly failed to comply with a
pretrial discovery order. See Ricciuti, 124 F.3d at 127.
The trial process was not corrupted; there was no trial.
The real nature of the Ricciuti plaintiffs’ complaints—and what gave them a cognizable constitutional claim—was apparently that as a result of the
allegedly fabricated confession, their assault charges
were reclassified as bias-related: “Because of the
seriousness of the charges against them, plaintiffs
were ineligible for release on desk appearance tickets,
and were forced to remain in jail for more than 30
hours from April 30 until near midnight on May 1,
1989 when they were released on their own recognizance.” Id. at 126.

54a
Thus, in Ricciuti, there was probable cause for the
plaintiffs’ arrests for assault. But if the confession was
fabricated, there was not probable cause for the
increase of the charges to the aggravated crimes of
bias, the aggravated crimes being the apparent basis
for keeping the plaintiffs detained for 30 hours rather
than releasing them as would otherwise have
occurred. Accordingly, the allegedly fabricated confession resulted in the deprivation of the plaintiffs’ liberty
for 30 hours.
I think it clear in light of Manuel—which was
based on settled Supreme Court precedent, some of
which preceded Ricciuti—that Ricciuti should have
addressed the claim it was upholding not as a due
process claim for denial of a fair trial, but rather as a
Fourth Amendment claim for unduly prolonged
deprivation of the plaintiffs’ pretrial liberty. The
source of plaintiffs’ right was the Fourth Amendment
since only their pretrial liberty had been curtailed, not
their right to fairness in a trial that was not held.
The Ricciuti panel’s “entirely different mode of
analysis” to approve of a due process fair-trial claim in
a case in which there was no trial at all, Majority
Opinion ante at 36, did not comply with the requirement that our “first inquiry in any § 1983 suit” be to
identify “the precise constitutional violation with
which [the defendant] is charged,” Graham v. Connor,
490 U.S. at 394 (internal quotation marks omitted), or
with the principle reaffirmed in Manuel that claims of
deprivation of liberty prior to trial are to be analyzed
under the Fourth Amendment rather than under
general principles of substantive due process.

55a
Dufort:
As noted above, the majority overturns the district
court’s grant of summary judgment dismissing Frost’s
claim for denial of a fair trial in which the evidence
he alleges was fabricated was not presented, despite
our holding in Dufort that such a claim should be
dismissed as a matter of law. The majority states that
Dufort is distinguishable because Frost’s claim is that
he was deprived of liberty “much earlier” than at trial
because the Officers allegedly coerced Vega to identify
Frost as Chapman’s shooter and sent that information
to the prosecutor. Majority Opinion ante at 39. But
that claim is one that should simply be analyzed under
the Fourth Amendment. Such analysis, however,
reveals one aspect in which Dufort is distinguishable,
i.e., the quality of the evidence leading to the respective prosecutions of Dufort and Frost, for a pretrial
detention following the fabrication of evidence violates
the Fourth Amendment only if without the “fabricated
evidence . . . probable cause is lacking,” Manuel, 137
S. Ct. at 920 n.8.
In Dufort, the summary dismissals of Dufort’s
claims of false arrest and malicious prosecution were
vacated, see Dufort, 874 F.3d at 343, 349-51, and those
claims were remanded for further proceedings because
there existed genuine issues of material fact. We
held that “the undisputed evidence . . . was” neither
“sufficient to establish probable cause to arrest as a
matter of law,” id. at 349, nor “sufficient to establish
probable cause for a criminal prosecution,” id. at 351.
In the present case, in contrast, we affirm (unanimously) the district court’s grant of summary judgment dismissing Frost’s malicious prosecution claims
in light of three undisputed facts: (1) that “Frost had a
motive to retaliate against Chapman” for an assault

56a
on Frost “by Chapman’s friends the night before,” (2)
that Frost and John McLaurin were in “the stairwell
from which Chapman was shot, immediately after
Chapman was shot,” and (3) that “McLaurin identified
Frost as the shooter,” Majority Opinion ante at 19. We
all agree “as a matter of law” based on “these
undisputed facts”—which contain no reference whatsoever to any statement by Vega—that “a reasonably
prudent person would have been led to believe that
Frost was guilty of shooting Chapman,” Majority
Opinion ante at 19 (emphases added). That was more
than ample probable cause for Frost’s arrest, detention, and prosecution.
In reversing the dismissal of the fair-trial claim, the
majority posits that “a reasonable jury could have
found that Vega’s identification critically influenced
the decision to prosecute Frost,” Majority Opinion
ante at 33 (internal quotation marks omitted
(emphasis mine)), or that “a reasonable jury could
have found that the decision to prosecute Frost would
have been different if McLaurin, who was Frost’s
fellow suspect, was the only person to identify him,” id.
(emphases mine). In light of the record, I do not see
that any reasonable juror could answer either
question in the affirmative, or even that these questions could properly be submitted to a jury, given the
majority’s own recounting of the three undisputed
facts quoted above—in which the only identification of
Frost as the shooter was that by McLaurin and there
was no consideration of any statement by Vega—that
support our unanimous conclusion that Frost’s malicious prosecution claims were properly dismissed
because “as a matter of law . . . a reasonably prudent
person would have been led to believe that Frost was
guilty of shooting Chapman,” Majority Opinion ante
at 19.

57a
And while the majority also states that “there is a
triable question as to whether Vega’s identification
would likely have influenced the jury at Frost’s criminal trial,” Majority Opinion ante at 38 (emphasis
added), posing such a question would be entirely
speculative, if not mind-boggling, because its premise
is negated by the actual events: Vega did not identify
Frost at the trial.
In sum, even if it were proven that the Officers
fabricated Vega’s 2011 identification of Frost as the
shooter as alleged, the undisputed evidence without
reference to the Vega identification forecloses any
claim by Frost for deprivation of his liberty prior to
trial. And we are in agreement that
it is undisputed here that Vega’s allegedly
coerced identification of Frost could not
have “distort[ed] the record” at Frost’s trial,
[Dufort, 874 F.3d at 355], because Vega did
not repeat this identification in his trial
testimony,
Majority Opinion ante at 39 (emphases mine). In my
view the majority’s reinstatement of Frost’s claim that
he was denied a fair trial is thus without legal or
factual foundation.
This case is not meaningfully distinguishable from
Dufort, and I would affirm the grant of summary
judgment dismissing the due process claims of denial
of a fair trial.

58a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
[Filed March 27, 2019]
————
15 Civ. 4843 (NRB)
————
JARRETT FROST
Plaintiff,
- against THE CITY OF NEW YORK, et al.
Defendants.
————
NAOMI REICE BUCHWALD
UNITED STATES DISTRICT JUDGE
————
MEMORANDUM AND ORDER
Plaintiff Jarrett Frost brings this action pursuant to
42 U.S.C. § 1983 and New York common law after a
jury acquitted him of all charges in connection with
the murder of Mavon Chapman. After dismissing
all claims under three causes of action and against one
named defendant,1 plaintiff now asserts thirteen
1

See Stipulation of Partial Dismissal and Withdrawal with
Prejudice Pursuant to Fed. R. Civ. P. 41(a)(1)(A)(ii) (“Stipulation”), ECF No. 76. Plaintiff dismissed with prejudice claims
under his first, sixth, and tenth causes of action. Plaintiff also
dismissed with prejudice all claims against defendants Correctional Officer Thomas, Detectives John Doe #1-2, and Correction
Officers John Does #1-5. Id. ¶¶ 1-3, 7, 9.

59a
causes of action against the City of New York (“NYC”),
three members of the New York Police Department
(“NYPD officers”),2 and 17 officers of the Department
of Correction (“DOC officers”)3 based on (1) alleged
malicious prosecution by NYPD officers and (2) alleged
use of excessive force by DOC officers while Frost was
incarcerated.
Since plaintiff asserts each cause of action against
different combinations of defendants, we list below
each cause of action and defendants against whom the
cause of action is asserted in order to avoid any
confusion:
Count 2: Deprivation of rights under the U.S.
Constitution and 42 U.S.C. § 1983 against
Lopuzzo, McDuffie, Ryan and Jemmott;4
Count 3: Use of excessive force by DOC
Officers with respect to Municipal Liability
against NYC;5
Count 4: Violation of substantive due process
rights against all individual defendants;6

2

The three NYPD officers are defendants Spennicchia, O’Neil
and Lopuzzo.
3

The 17 DOC officers are defendants McDuffie, Ryan, Jemmott,
Torres, Soria, Carty, Souffrant, Tatulli, Previllon, Gonzales, Young,
McLaughlin, Barksdale, Corker, Sanchez, Hill, and Joye.
4

Plaintiff dismissed Count 2 as against NYC, Spennicchia,
O’Neil, Torres, Soria, Carty, Souffrant, Tatulli, Previllion, Gonzalez,
Young, McLaughlin, Barksdale, Corker, Sanchez, Hill, and Joye.
Stipulation ¶ 4.
5

Plaintiff dismissed Count 3 as against all individual defendants. Id. ¶ 5.
6

Plaintiff dismissed Count 4 as against NYC. Id. ¶ 6.

60a
Count 5: Malicious prosecution against NYC,
Spennicchia, O’Neil, and Lopuzzo;
Count 7: Battery against NYC, McDuffie,
Soria, Carty, Souffrant, Tatulli, and Previllon;7
Count 8: Assault against NYC, McDuffie,
Soria, Carty, Souffrant, Tatulli, and Previllon;8
Count 9: Excessive force against all DOC
officers except for Gonzalez;
Count 11: Dereliction of duty, depraved indifference, and failure to intercede against all
DOC officers;9
Count 12: Negligence against all defendants;
Count 13: Negligent hiring against defendant
NYC;
Count 14: Negligent infliction of emotional
harm against all defendants;
Count 15: Intentional infliction of emotional
harm against all defendants; and
Count 16: Monell liability against NYC.
Defendants move for summary judgment against all
of plaintiff’s claims. Since plaintiff cannot maintain
any cause of action against NYC without establishing
an underlying claim based an individual defendant’s
action, we assess the state of the record “to determine
whether there is a genuine issue to be tried” as
to claims asserted against individual defendants.
7

Plaintiff dismissed Count 7 as against Gonzalez. Id. ¶ 8.

8

Plaintiff does not explicitly dismiss Count 8 as against
Gonzales but does not list Gonzales as a defendant for Count 8.
Id. ¶ 11(f).
9

Plaintiff dismissed Count 11 as against NYC. Id. ¶ 10.

61a
Gorzynski v. JetBlue Airways Corp., 596 F.3d 93, 101
(2d Cir. 2010). For the reasons stated below, we
find that plaintiff has failed to establish his federal
claims against any individual defendant and grant
defendants’ motion for summary judgment.
BACKGROUND10
We begin with undisputed facts related to plaintiff’s
initial arrest and prosecution before turning to undisputed facts related to four incidents of alleged use
of excessive force by DOC officers while plaintiff was
incarcerated in Rikers Island.
I. Alleged Malicious Prosecution by NYPD Officers
Mavon Chapman was shot and killed on July 6,
2010, at or around 3:55 a.m. on the corner of Morris
Avenue and East 149th Street in the Bronx. Defs.’ 56.1
Stmt. ¶ 3, ECF No. 80.11 On the day of the murder,
Frost was residing in an apartment complex at 225
East 149th Street in the Bronx (“apartment complex”),
which is located one block from where Chapman was
shot. Id. ¶¶ 4-6. The day before the murder, Frost and
his friend were assaulted by a neighborhood gang in
front of the apartment complex. Id. ¶ 7. The gang
included non-parties Leon Vega and Tjon Macall. Id.
¶ 8. Frost was interviewed by non-party Detective

10

The following facts are taken from the parties’ Local Rule
56.1 Statements, declarations, and exhibits. Our citations to the
56.1 statements also incorporate by reference the documents and
testimony cited therein.
11

Plaintiff’s counsel failed to comply with the Court’s Individual Rules of Practice by not reproducing each entry of defendants’
56.1 Statement in the counter-statement. Consequently, we
provide parallel citations to both parties’ 56.1 Statements only if
the statement is disputed by the parties.

62a
Burgos about the assault within a day of the assault.
Id. ¶¶ 12-13.
Detectives Spennicchia and O’Neil interviewed six
witnesses, including Vega and Macall, who were within the vicinity of Morris Avenue and East 149th Street
at the time of the murder. Id. ¶ 21. Based on the
interviews and two .380 caliber shell casings found
under the passageway of the apartment complex, the
detectives came to believe that the shots that had
killed Chapman came from a doorway leading to the
apartment complex’s stairwell. Id. ¶¶ 24-31. The
detectives reviewed surveillance video from cameras
located inside the lobby and the stairwell of the
apartment complex, which showed two individuals
coming down and then running back up the stairwell
at the time of the murder. Id. ¶¶ 33-39. Detective
Burgos identified one of the individuals as Frost. Id.
¶ 40. On July 7, 2017, Detectives Spennicchia and
O’Neil interviewed Frost, who admitted that he was in
the stairwell with non-party John McLaurin. Id.
¶¶ 44-49, 59. Frost also informed the detectives and
an Assistant District Attorney (“ADA”) that, while he
was with McLaurin in the staircase, he saw McLaurin
with a gun after he heard gunshots.12 Id. ¶ 61-62; Pl.’s
56.1 Counter-Stmt. ¶ 62, ECF No. 113.
On January 6, 2011, Vega, who had been arrested
for an unrelated crime, wanted to enter into a cooperation agreement with the Bronx District Attorney’s
Office in exchange for information he had about

12

After initially saying that he first saw McLaurin with a gun
after the shots, Frost then clarified that he saw McLaurin “make
a motion” into his left pocket as if he were “reaching for something.” Pl.’s 56.1 Counter-Stmt. ¶ 62.

63a
Chapman’s murder. Defs.’ 56.1 Stmt. ¶ 72. Accompanied by his criminal defense attorney, Vega was
interviewed by an ADA at the District Attorney’s
Office and identified Frost as the shooter from a
photo array.14 Id. ¶ 74-76; Pl.’s 56.1 Counter-Stmt.
¶ 75-76. Vega also identified McLaurin from a photo
array as the individual who was with Frost at the time
of the murder. Defs.’ 56.1 Stmt. ¶ 78. On January 9,
2011, Detectives Spennicchia and O’Neil interviewed
McLaurin after advising him of his Miranda rights. Id.
¶¶ 79-81. During the interview, McLaurin stated that
he was with Frost in the staircase and identified Frost
as the shooter. Id. ¶¶ 84-94; Pl.’s 56.1 Counter-Stmt.
¶¶ 84-95. McLaurin also provided an audio statement
to an ADA. Defs.’ 56.1 Stmt. ¶ 95.
13

Based on Vega’s and McLaurin’s statements, the
Bronx District Attorney’s Office authorized the arrest
of Frost. Id. ¶¶ 96-97; Pl.’s 56.1 Counter-Stmt. ¶¶ 9697. On January 13, 2011, Frost was arrested on
charges of: (1) Murder in the Second Degree, N.Y.P.L.
§ 125.25(1); (2) Manslaughter with Intent to Cause
Physical Injury, N.Y.P.L. § 125.20(1); (3) Criminal
Possession of a Weapon in the Second Degree: Loaded
Firearm, N.Y.P.L. § 265.03(1); and (4) Criminal Procession of a Weapon in the Second Degree: Loaded
Firearm, N.Y.P.L. § 265.03(3). Defs.’ 56.1 Stmt. ¶ 98.
13

During his initial interview with the police on July 6, 2010,
Vega stated that he did not see or know who shot Chapman. Defs.’
56.1 Stmt. ¶ 23.
14

In a declaration dated September 12, 2018, Vega states for
the first time that he falsely identified Frost as the shooter under
duress from Detectives Spennicchia and O’Neil. See Decl. of Leon
Vega, ECF No. 111-1, ¶¶ 13-18. As discussed infra, we find that
Vega’s eleventh hour declaration does not create a genuine issue
of fact.

64a
On February 1, 2011, Frost was indicted by a grand
jury on the four charges. Id. ¶ 100. The New York
Supreme Court, Bronx County, found that the evidence before the grand jury was legally sufficient in
all respects. People v. Frost, Indictment No. 004732011, Feb. 3, 2012 Decision & Order (N.Y. Sup. Ct.
2012). On June 24, 2014, Frost was found not guilty of
all charges after a jury trial.15 Defs.’ 56.1 Stmt. ¶ 102.
II. Alleged Use of Excessive Force by DOC Officers
Plaintiff alleges four specific incidents during which
he asserts that DOC officers used excessive force.16 We
recite the undisputed facts related to each incident in
chronological order.
A. July 25, 2012 Incident
On July 25, 2012, plaintiff was scheduled to appear
in the Manhattan Criminal Court. Id. ¶ 128. Plaintiff,
who had been designated as a RED ID inmate,17 was
15

There is no allegation that the delay between plaintiff’s
arrest and trial is attributable to any defendant.
16

Plaintiff’s amended complaint recites seven incidents. However, plaintiff does not assert any claim premised on the first
three incidents that allegedly took place on (1) May 16, 2011,
(2) November 10, 2011, and (3) February 15, 2012, apparently
recognizing that the three-year statute of limitations for a § 1983
action had expired for the three incidents by the time plaintiff
filed his complaint on June 22, 2015. See Dory v. Ryan, 999 F.2d
679, 681 (2d Cir. 1993) (“The statute of limitations for actions
under § 1983 is the statute of limitations applicable to personal
injuries occurring in the state in which the appropriate federal
court sits. . . . In New York State, the applicable statute of
limitations for personal injuries is three years.”) (internal citations omitted). Plaintiff’s pleading is inconsistent in recognizing
the time bar of the first three incidents.
17

A RED ID classification is given to inmates who have
engaged in assaultive behavior. See Defs.’ 56.1 Stmt. ¶ 125; Pl.’s

65a
waiting for his scheduled court appearance in a cell
on the 12th floor of the courthouse, id. ¶ 127, when he
got into a physical fight with another inmate, Jason
Skinner, id. ¶ 132. Defendant Officer Torres, who was
assigned to work at the 12th floor RED ID cell on the
day of the incident, id. ¶ 123, and his partner, Officer
Thomas, both told plaintiff and Skinner to stop
fighting and entered the cell. Id. ¶ 135-36. Plaintiff
and Skinner stopped fighting, and Officers Torres
and Thomas separated them. Id. ¶¶ 136, 138. Officer
Thomas noticed that Skinner was bleeding from
lacerations on his face and thigh. Id. ¶ 140; see also
Defs.’ Ex. U, ECF No. 78-21, Bates No. DEF 1564. In
light of Skinner’s injuries, Officers Torres and Thomas
searched plaintiff and the cell for a shank, but the
officers did not discover any weapon. Id. ¶¶ 141, 144.
During the fight, plaintiff’s prescription glasses fell
off.18 Id. ¶¶ 152-53. After the fight, plaintiff asked
Officer Torres for his glasses. Id. ¶ 154. Officer Torres
located the glasses on the floor and noticed that they
were damaged. Id. ¶ 155-56; Pl.’s 56.1 Counter-Stmt.
¶156.19 Officer Torres handed the glasses back to
56.1 Counter-Stmt. ¶ 125. RED ID inmates wear RED ID
restraints and handcuffs. See Defs.’ 56.1 Stmt. ¶ 126. Plaintiff
was given RED ID status after he “was involved in a use of force”
with several non-party corrections officers and non-party inmates
on February 15, 2012. Id. ¶¶ 118, 120. Plaintiff was later found
guilty of six counts of obstructing governmental administration
related to that incident, but was acquitted of assault charges. Id.
¶ 122; Pl.’s 56.1 Counter-Stmt. ¶ 122.
18

Plaintiff was given prescription glasses by a Department of
Corrections optometrist about a month earlier on June 22, 2012.
Defs.’ 56.1 Stmt. ¶ 152.
19

Officer Torres stated that, when he picked up the glasses,
the right lens was broken and the frame was cracked at the bottom of the lens on the right side. Defs.’ 56.1 Stmt. ¶ 156; Defs.’

66a
plaintiff but intentionally further broke the glasses in
the middle of the frame. Defs.’ 56.1 Stmt. ¶ 157-58.
Plaintiff received medical attention after the incident but did not request new glasses at that time. Id.
¶ 159. Plaintiff requested new glasses on August 16,
2012 and received them on September 22, 2012. Id.
¶¶ 160-61.
B. October 9, 2012 Incident
On October 9, 2012, plaintiff was brought to the
Bronx Supreme Court for an attorney visit. Id. ¶ 164.
Defendant Captain Jemmott was assigned as Search
Captain and was tasked with searching inmates and
transporting them back to their respective facilities
after their court appearances. Id. ¶ 163. Defendant
Officer Joye was also present at the courthouse. Id.
¶ 170. Plaintiff complained to an unidentified officer
that it was difficult to breathe in the booth area, and
he was subsequently brought towards an empty pen in
the intake area by Captain Jemmott. Id. ¶¶ 165-66.
While in transit, plaintiff told Captain Jemmott that

Ex. H (Torres Deposition), ECF No. 78-8, Tr. 69:12-20. Plaintiff
disputes this statement and cites several pages of the transcript
from plaintiff’s deposition. See Pl.’s 56.1 Counter-Stmt. ¶ 156.
However, plaintiff stated during his deposition: “So when I looked
at my glasses . . . I realized they had been broken and damaged.”
Pl.’s Ex. A (“Frost Deposition”), ECF No. 110, Tr. 186:6-8.
Although plaintiff did not describe the extent of the damage, his
statement does not contradict Officer Torres’s statement that
the glasses were damaged during plaintiff’s altercation with
Skinner. Since plaintiff does not “point to any evidence in the
record that may create a genuine issue of material fact,” plaintiff’s 56.1 statement “will be deemed [an] admission[] of the stated
fact.” Senno v. Elmsford Union Free Sch. Dist., 812 F. Supp. 2d
454, 458 n.1 (S.D.N.Y. 2011).

67a
he would spit on Jemmott’s face.20 Id. ¶ 171; Pl.’s 56.1
Counter-Stmt. ¶ 171. Captain Jemmott then took
plaintiff to the ground and held his face. Id. ¶ 172.
Officer Joye used his knee to keep plaintiff’s legs down,
and one of the two officers kicked plaintiff in the ribs.
Id. ¶¶ 173-74. Plaintiff was dragged across the ground
by Captain Jemmott and Officer Joye. Id. ¶ 175.
Plaintiff was taken to the medical clinic on the same
day, and he complained of mild hearing loss in his
right ear. Id. ¶¶ 177-79. The next day, plaintiff was
diagnosed with bruises on the right side of his forehead and right cheekbone, as well as a ruptured right
eardrum. Id. ¶ 181. Plaintiff was given Motrin for
these injuries. Id. ¶ 184.
C. January 16, 2013 Incident
On January 16, 2013, plaintiff was housed on the
first floor of the Central Punitive Segregation Unit
(“CPSU”). Defs.’ 56.1 Stmt. ¶ 189. Defendant Captain
Ryan was assigned to the CPSU as the supervisor of
the fourth floor, defendant Officer McLaughlin was
assigned to the CPSU as a second floor escort, and
defendant Officer Hill was assigned to the CPSU
Intake 3-point search area. Id. ¶ 186-193. Defendant
Officer Hill initiated a strip search of plaintiff after
plaintiff returned from court. Id. ¶¶ 196-98.
The parties’ accounts of what followed diverge.
Defendants’ version is as follows. Defendant Officer
Hill was notified by his supervisor, Deputy Warden

20

Regarding his alleged threat, plaintiff stated: “I don’t recall
saying that, but – I never spit in his face, but if I was mad, I
possibly did.” Frost Deposition, Tr. 265:23-24. This type of
response does not function as a denial “and will be deemed [an]
admission[] of the stated fact.” Senno, 812 F. Supp. 2d at 458 n.1.

68a
Ramos, that plaintiff was secreting an object in his
anal cavity. Id. ¶ 203. Plaintiff turned over a contraband bag of cheese to defendant Officer Hill but
refused to turn over a second contraband object
despite several direct orders that he do so. Id. ¶¶ 200201. Defendant Captain Ryan was tasked with
conducting an extraction of the second object from
plaintiff’s anal cavity. Id. ¶ 204. Captain Ryan assembled an extraction team that consisted of himself,
Officers Young, McLaughlin, Barksdale, Corker,
Sanchez, and non-party Officer Stowers. Id. ¶ 207. In
preparation for the extraction, Captain Ryan obtained
plaintiff’s profile from the security office Id. ¶ 208.
Plaintiff’s profile revealed he was a RED ID inmate,
was designated as an “Intended Contraband Recipient,” had enhanced restraint status, was a member of
the Bloods gang, had a record of assaulting staff, was
previously caught with a weapon, and had either one
or two infractions for fighting with inmates. Id. ¶ 209.
Defendants Ryan and Hill tried to convince plaintiff to
turn over the remaining contraband, but they were
unsuccessful. Id. ¶¶ 215-16. Plaintiff was subsequently moved from the CPSU intake search area.
Id. ¶ 222; see also Def’s Ex. V, ECF No. 78-22, Bates
No. DEF 1725 (Handheld Video of Jan. 3, 2013
Incident) (“Video of the Extraction Incident”).
Immediately prior to the extraction, plaintiff kept his
left hand in the cuffing port to prevent Captain Ryan
from opening the door, spit on him, and attempted
to grab pepper spray from him. Id. ¶¶ 223-225.
Immediately prior to the extraction, Captain Ryan
pepper sprayed plaintiff twice, ordered plaintiff to
remove the contraband and release his arm from
the cell, and ordered defendant Officer McLaughlin
to remove plaintiff’s arm from the cuffing port. Id.
¶¶ 227, 229, 231. Plaintiff’s arm was removed from the

69a
cuffing port, and two members of the extraction team
entered the search area. Id. ¶¶ 232, 234.
Plaintiff threw punches at the officers as they
entered the search area while plaintiff attempted to
exit the search area. Id. ¶ 235. Plaintiff was ordered to
stop resisting but failed to do so. Id. ¶¶ 238, 240-241.
The officers grabbed plaintiff’s arm and took him to
the ground. Id. ¶ 237. One officer applied leg shackles
while another officer applied handcuffs and plaintiff
was subsequently lifted to his feet and brought to
the three-point search area. Id. In the search area,
Captain Ryan ordered plaintiff to squat, but he
refused to squat and instead lunged towards Ryan.
Id. ¶¶ 246-247. Plaintiff eventually squatted as
requested, and a piece of triangular metal wrapped in
black electrical tape fell out of his rectum. Id. ¶ 250.
Plaintiff sustained some bruises during the extraction and was treated at the medical clinic with an ice
pack and pain medication. Id. ¶¶ 252-253. He was
subsequently arrested and indicted in connection with
the incident. Id. ¶ 254. On December 1, 2014, plaintiff
pled guilty to Promoting Prison Contraband in the
Second Degree in satisfaction of the indictment issued
in connection with the incident. Id. ¶ 255; Defs.’ Ex. V
(Certificate of Disposition on Jan. 16, 2013 incident),
ECF No. 78-22.
Plaintiff’s account of the January 16, 2013 incident
differs from defendants’ account in the following ways.
Plaintiff admits that he had a bag of cheese in his
possession but denies that he had any other object in
his possession. See Pl.’s 56.1 Counter-Stmt. ¶ 198; Pl.’
Ex. A (Frost Deposition), Tr. 273:4-273:21. Plaintiff
asserts that the metal contraband was planted on him
by Captain Ryan. Pl.’s 56.1 Counter-Stmt. 11 197-198,
200, 221, 229-230. Plaintiff disputes that he was

70a
secreting anything in his anal cavity. Id. ¶ 203.
Plaintiff also denies resisting officers during the
extraction. Id. ¶ 238-240. Lastly, plaintiff admits to
pleading guilty to promoting prison contraband but
asserts he did so “to get the incident over with and
move on without doing further jail time rather than
because he was guilty.” Id. ¶ 255.
D. July 16, 2013 Incident
On July 16, 2013, Plaintiff was housed in “Housing
Area 1 South” of the Central Punitive Segregation
Unit (“CPSU”). Defs.’ 56.1 Stmt. ¶ 258. Defendants
McDuffie, Soria, and Previllon were all assigned to
work at the recreation post of the CPSU that day. Id.
¶¶ 259-64. Plaintiff and eighteen other inmates were
escorted to the recreation post around 6 a.m. on July
16, 2013. Id. ¶ 270. Nineteen inmates, including plaintiff, refused to leave the recreation yard at the end of
their allotted hour. Id. ¶¶ 272-73. Defendant McDuffie
and other officers spent approximately seven hours
speaking with plaintiff and other inmates in an
unsuccessful attempt to get them to come back inside.
Id. ¶ 275. An extraction team was assembled to extract
plaintiff. Id. ¶ 282. The extraction team consisted of
defendants McDuffie, Soria, Previllon, Souffrant,
Carty, Tatulli, Gonzales, and non-party Savage. Id.
¶ 283. When the extraction team arrived at plaintiff’s
pen, plaintiff was holding the gate with one hand and
had ripped his orange clothing to make elbow pads and
a mouth guard. Id. ¶ 284.21 Plaintiff threw several
21

Plaintiff asserts a blanket dispute to defendants’ account of
the July 16, 2013 incident. Pl.’s 56.1 Counter-Stmt. ¶¶ 284-296.
Plaintiff’s reply violates Federal Rule of Civil Procedure 56(c) in
that it does not respond to each numbered paragraph and instead
cites to several pages of plaintiff’s deposition without clarifying
which statements of fact are in dispute. Regardless, we need not

71a
punches at Officer Soria and Soria subsequently lost
his balance and fell to the ground. Id. ¶ 287. Plaintiff
got on top of Officer Soria. Id. ¶ 288. It took three
members of the extraction team approximately 40
seconds to remove plaintiff from Officer Soria. Id.
¶ 290. Plaintiff was ordered to stop resisting during
the extraction but persisted in resisting. Id. ¶¶ 292293.
Plaintiff was treated at the CPSU mini clinic on the
same day for sustaining a black eye. Id. ¶¶ 297-298.
Plaintiff also had mild abrasions and superficial contusions, was in “no apparent distress,” and was given
bacitracin and Tylenol to relieve pain. Id. ¶¶ 299-300.
Procedural History
Plaintiff filed his complaint on June 22, 2015 and
the operative amended complaint on February 5, 2016.
See ECF Nos. 1, 21. After a very prolonged discovery
period due to plaintiff’s utter failure to prosecute the
case on a timely manner, see Letter from the Court to
Ellie A. Silverman, Apr. 19, 2018, ECF No. 67, the
discovery period ended on March 31, 2018, and defendants moved for summary judgment on July 10, 2018,
see ECF No. 77.
Plaintiff’s answering brief was due August 28, 2018.
See ECF No. 70. However, plaintiff’s counsel, Ellie A.
Silverman, sought an extension of the deadline until
September 14, 2018, based on “the unforeseen lack of
attorney coverage” at her law firm, and we granted the
credit assertions that “are flatly contradicted by the video evidence.” Hicks v. Vill. of Ossining, No. 12-cv-6874 (VB), 2016 WL
345582, at *5 (S.D.N.Y. Jan. 27, 2016). Here, video footage of the
incident of the incident clearly corroborates defendants’ factual
assertions. See Defs.’ Ex. W, ECF No. 78-23 (Handheld Video of
Jul. 16, 2013 Incident) (“Video of the Recreation Post Incident”).

72a
request. See ECF No. 87. The day before the extended
deadline, Ms. Silverman informed the Court that the
sole principal of her law firm, Ilya Novofastovsky, had
been suspended from the practice of law and, given
the numerous ethical issues that the suspension
raised, asked for another adjournment of the deadline.
See Letter from Ellie A. Silverman to the Court, Sep.
13, 2018, ECF No. 88. We granted plaintiff a 30-day
extension “to file answering papers to the pending
summary judgment motion either pro se or by counsel.” Sep. 18, 2018 Order, ECF No. 95.
Ms. Silverman informed the Court that plaintiff
“wanted [Ms. Silverman] to continue representing
him.” See Letter from Ellie A. Silverman to the Court,
Oct. 16, 2018, ECF No. 96. She also asked for a brief
stay on all motion practice until Mr. Novofastovsky
turned over plaintiff’s physical and electronic files to
her. Id. We ordered Ms. Silverman to submit the
answering brief within three weeks of receiving the
files “but in no event later than December 3, 2018.”
ECF No. 97. After learning that Mr. Novofastovsky
was ignoring her requests, see ECF No. 98, we issued
an order to show cause “as to why he, as a suspended
lawyer who was terminated as plaintiff’s counsel, was
entitled to place conditions on the transfer of the files
and/or retain the files,” Dec. 6, 2018 Order, ECF No.
105. Mr. Novofastovsky then delivered the files to Ms.
Silverman. Subsequently, plaintiff filed his answering

73a
brief on January 18, 2019,22 and defendants filed their
reply brief on February 19, 2019.23
Discussion
I. Motion for Summary Judgment
Summary judgment is granted where “the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). “A fact is
material when it might affect the outcome of the suit
under governing law,” and “[a]n issue of fact is genuine
if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” McCarthy
v. Dun & Bradstreet Corp., 482 F.3d 184, 202 (2d Cir.
2007) (citations and internal quotation marks omitted). In determining whether there are genuine issues
of material fact, the Court is “required to resolve all
ambiguities and draw all permissible factual inferences in favor of the party against whom summary
judgment is sought.” Stern v. Trustees of Columbia
Univ., 131 F.3d 305, 312 (2d Cir. 1997).
22

Plaintiff submitted for this Court’s consideration a recent
opinion by the Eastern District of New York in Hamilton v. City
of New York, 15-cv-4574 (CBA). See Letter from Ellie A. Silverman
to the Court, Mar. 25, 2019, ECF No. 127. However, we find that
the facts in that case are readily distinguishable from those
before this Court, and that the opinion is thus not relevant.
23

On the same day they filed their reply brief, defendants filed
a letter seeking a pre-motion conference to exclude plaintiff’s
proposed expert report by Joseph Pollini as both untimely and
inadmissible under Daubert v. Merrell Dow Pharms., Inc., 509
U.S. 579 (1993). See Letter from Nicholas Manningham to the
Court, Feb. 19, 2019, ECF No. 125. Given our resolution of the
summary judgment motion, we need not reach defendants’ potential motion. However, even a cursory review of the report makes
clear that the motion would have been granted.

74a
“The moving party bears the initial burden of
demonstrating ‘the absence of a genuine issue of
material fact.’” F.D.I.C. v. Great Am. Ins. Co., 607 F.3d
288, 292 (2d Cir. 2010) (quoting Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986)). If the movant meets
its burden, “the nonmoving party must come forward
with admissible evidence sufficient to raise a genuine
issue of fact for trial in order to avoid summary
judgment.” Jaramillo v. Weyerhaeuser Co., 536 F.3d
140, 145 (2d Cir. 2008). However, the non-moving
party “must do more than simply show that there
is some metaphysical doubt as to the material facts”
and “may not rely on conclusory allegations or unsubstantiated speculation.” Jeffreys v. City of New York,
426 F.3d 549, 554 (2d Cir. 2005) (internal citations and
quotation marks omitted).
II. Malicious Prosecution (Count 5)
To state a § 1983 claim analogous to a state law
malicious prosecution claim, plaintiff must not only
establish the four elements of the state law claim,24 but
he must also demonstrate “a violation of [his] right
under the Fourth Amendment to be free from
unreasonable seizure.” Lanning v. City of Glens Falls,
908 F.3d 19, 28 (2d Cir. 2018). Defendants challenge
two of the five elements: that defendants initiated a
prosecution against plaintiff and that they did so

24

To state a malicious prosecution claim under New York law,
plaintiff must show: “(1) the defendant initiated a prosecution
against plaintiff, (2) without probable cause to believe the proceeding can succeed, (3) the proceeding was begun with malice,
and (4) the matter terminated in plaintiff’s favor.” Cameron v.
City of New York, 598 F.3d 50, 63 (2d Cir. 2010) (quoting Ricciuti
v. N.Y.C. Transit Auth., 124 F.3d 123, 130 (2d Cir. 1997)).

75a
without probable cause to believe that the prosecution
could succeed.25
While police officers do not generally “commence or
continue” criminal proceedings against defendants, a
claim for malicious prosecution can still be maintained
against a police officer if the officer either (1) created
false information and forwarded it to prosecutors or
(2) withheld relevant and material information. See
Mitchell v. Home, 434 F. Supp. 2d 219, 227 (S.D.N.Y.
2006). Defendants argue that they, as a matter of law,
were not the initiators of proceedings against Frost
because they did “no more than disclose to a prosecutor
all material information within [their] knowledge.”
Husbands ex rel. Forde v. City of New York, No. 05-cv9252 (NRB), 2007 WL 2454106, at *9 (S.D.N.Y. Aug.
16, 2007), aff’d, 335 F. App'x 124 (2d Cir. 2009)
(internal citation and quotation marks omitted). We
agree.
Plaintiff’s malicious prosecution claim is premised
on Vega’s September 12, 2018 declaration in which
Vega asserts that Detectives Spennicchia and O’Neil
allegedly forced him into identifying Frost as the
shooter.26 See Decl. of Leon Vega ¶¶ 13-18. The scant,

25

Defendants also challenge the “malice” element. However,
at the summary judgment stage, “actual malice can be inferred
when a plaintiff is prosecuted without probable cause.” Rentas v.
Ruffin, 816 F.3d 214, 221-22 (2d Cir. 2016). Therefore, any finding of malice hinges on our probable cause analysis.
26

Vega also asserts that he “refused to testify against [Frost]
because [he] did not want to continue to lie.” Decl. of Leon Vega
¶ 20. However, Vega was in fact called as a witness and testified
at trial. See Transcript of Trial at 181-206, People v. Frost, Indictment No. 00473-2011 (N.Y. Sup. Ct. 2014). At trial, Vega repeatedly claimed lack of memory and, most significantly, did not take
the opportunity to recant his original statements to the ADA in

76a
three-page declaration – which was signed more than
three years after plaintiff and his counsel filed this
instant action, six months after the discovery period
concluded, and two months after defendants filed their
summary judgment motion – omits the undisputed
and determinative fact that Vega’s attorney and an
ADA were present at his interview with the detectives.
See Defs.’ 56.1 Stmt. ¶ 74. As defendants argue, Vega’s
assertion, if true, would “mean that the two attorneys
present during the interview, in violation of their
ethical and legal obligations, condoned, countenanced
and permitted the detectives to coerce Vega into
testifying falsely.” Reply Mem. Law in Supp. of Defs.’
Mot. Summ. J., ECF No. 124, at 4. Vega’s naked,
uncorroborated assertion that he was forced to identify
Frost as the shooter after given a photo array in
the presence of his criminal defense attorney is “so
replete with inconsistencies and improbabilities that
no reasonable juror would undertake the suspension
of disbelief necessary to credit” his allegation. Jeffreys
v. City of New York, 426 F.3d 549, 551 (2d Cir. 2005).
See also Blake v. Race, 487 F. Supp. 2d 187, 203
(E.D.N.Y. 2007) (holding that, although the Second
Circuit in Jeffreys declined to credit the plaintiff’s own
testimony, the Circuit’s reasoning could apply with
equal force to a non-party witness’s testimony if the
testimony is “so fanciful and lacking in any corroboration that it [is] insufficient to create an issue of fact”).
Assuming arguendo the veracity of Vega’s declaration, we still find that no genuine issue of material fact
exists as to whether defendants “misled or pressured
[the prosecutor] who could be expected to exercise
independent judgment.” Townes v. City of New York,
the presence of his counsel and Detectives Spennicchia and
O’Neil.

77a
176 F.3d 138, 147 (2d Cir. 1999). As the undisputed
facts show, prosecutors from the Bronx District
Attorney’s Office were present when Frost, Vega, and
McLaurin made their statements. See Defs.’ Ex. O,
ECF No. 78-15, Bates No. DEF 4674 (stating that ADA
Bijra-Koessler was present when Frost made his
stenographic statement); id. Bates No. DEF 4744
(stating that ADA Baumgardner was present when
McLaurin made his audio statement); Defs.’ 56.1 Stmt.
¶ 74 (stating that an ADA was present during Vega’s
interview). After evaluating those statements, the
District Attorney’s Office made the decision to arrest
Frost. See Dep. of Michael Lopuzzo, ECF No. 78-7, Tr.
90:13-17. Thus, the prosecutors used their independent judgment to prosecute Frost, which breaks the
chain of causation with respect to any potential
liability of the officers for the prosecution. See Townes,
176 F.3d at 147.
Furthermore, there was probable cause to arrest
and prosecute plaintiff for each of the charges set forth
in the indictment. First, “there is a presumption of
probable cause created by the fact that a grand jury”
indicted Frost. Bermudez v. City of New York, No. 11cv-750 (LAP), 2014 WL 11274759, at *10 (S.D.N.Y.
Mar. 25, 2014). Second, it is undisputed that: (1) the
shots that killed Chapman came from a doorway
leading to the stairwell inside the apartment complex;
(2) plaintiff was in the stairwell at the time of
the murder; (3) he had a motive to retaliate against
the neighborhood gang; and (4) McLaurin identified
plaintiff as the shooter. Thus, even without Vega’s
statement, NYPD officers and the prosecutor had
“knowledge of, or reasonably trustworthy information
as to, facts and circumstances sufficient to provide

78a
probable cause” for all of Frost’s four charges.27 Zellner
v. Summerlin, 494 F.3d 344, 369 (2d Cir. 2007).
III. Excessive Force (Count 9)
A pretrial detainee bringing excessive force claims
must show “that the force purposely or knowingly used
against him was objectively unreasonable.” Kingsley v.
Hendrickson, 135 S. Ct. 2466, 2473 (2015). “[O]bjective
reasonableness turns on the facts and circumstances
of each particular case. A court must make this determination from the perspective of a reasonable officer
on the scene, including what the officer knew at the
time, not with the 20/20 vision of hindsight.” Id. In
determining whether force was objectively reasonable,
we may consider factors such as: “the relationship
between the need for the use of force and the amount
of force used; the extent of the plaintiff’s injury; any
effort made by the officer to temper or to limit the
amount of force; the severity of the security problem at
issue; the threat reasonably perceived by the officer;
and whether the plaintiff was actively resisting.” Id.
“Not every push or shove, even if it may later seem
unnecessary in the peace of a judge’s chambers, violates a prisoner’s constitutional rights.” Johnson v.
Glick, 481 F.2d 1028, 1033 (2d Cir. 1973). For plaintiff’s excessive force claims to survive summary judgment, Frost must “allege that the officers used more
than de minimis force.” Feliciano v. Thomann, 747 F.
App’x 885, 887 (2d Cir. 2019).

27

Since we find that defendants had probable cause to prosecute plaintiff and did not “commence the criminal proceeding due
to a wrong or improper motive,” we also find that no genuine issue
of fact exists regarding whether defendants acted with malice.
Lowth v. Town of Cheektowaga, 82 F.3d 563, 573 (2d Cir. 1996).

79a
A. July 25, 2012 Incident
Plaintiff’s excessive force claim related to the July
25, 2012 incident stems from the intentional breaking
of his prescription eyeglasses by defendant Officer
Torres. As a matter of law, “plaintiff’s allegations that
defendants intentionally destroyed his glasses . . . do
not state a claim for relief under § 1983. Intentional,
unauthorized deprivations of property by prison
officials cannot be redressed pursuant to § 1983 if
‘adequate state post-deprivation remedies are available.’” Muhammad v. McMickens, No. 86-cv-7376 (SWK),
1988 WL 7789, at *2 (S.D.N.Y. Jan. 25, 1988) (quoting
Hudson v. Palmer, 468 U.S. 517, 533 (1984)). In
plaintiff’s case, “state tort law causes of action [constitute] an adequate post-deprivation state remedy.”
Alloul v. City of New York, No. 09-cv-7726 (JSR)(FM),
2010 WL 5297215, at *6 (S.D.N.Y. Dec. 21, 2010).
Moreover, no reasonable jury could conclude that
the alleged deprivation of plaintiff’s prescription
glasses – when plaintiff did not expeditiously request
replacement glasses and did not suffer any symptoms
from not wearing prescription glasses -violated plaintiff’s constitutional rights. See Zigmund v. Solnit,
199 F.3d 1325 (2d Cir. 1999) (“[R]equirements of
due process do not apply when the property interest
involved is de minimis.”) (citations and internal quotations omitted); see also Gardner v. Mental Health
Unit of Sullivan Corr. Facility, No. 07-cv-5535 (WHP),
2009 WL 1834382, at *2 (S.D.N.Y. June 17, 2009)
(deprivation that “does not endanger an inmate's
health and safety” does not establish constitutional
violation). Accordingly, we grant defendants’ motion
for summary judgment as to plaintiff’s excessive force
claim arising from the July 25, 2012 incident.

80a
B. October 9, 2012 Incident
Plaintiff’s excessive force claim related to the
October 9, 2012 incident arises from alleged use of
excessive force by several DOC officers after plaintiff
stated that he would spit on Officer Jemmott’s face. In
assessing the alleged use of excessive force, we must
view the incident “from the perspective of a reasonable
officer on the scene, including what the officer knew
at the time.” Kingsley, 135 S. Ct. at 2473 (2015). By
the time of the October 9, 2012 incident, plaintiff had
been placed on RED ID status – status well-earned –
as the result of a use of force against correction officers
On February 15, 2012. Id. ¶ 120. Plaintiff had also
already pled guilty to assault as the result of yet
another use of force against a correction officer on May
16, 2011. Defs.’ 56.1 Stmt. ¶¶ 105, 115. Just months
earlier, during the July 25, 2012 incident, plaintiff had
been involved in a fight with another inmate that
resulted in “lacerations” on the other inmate’s face and
thigh that bled “a lot” and required medical attention.
Id. ¶ 140.
In sum, plaintiff had established himself as a violent
inmate whose threats against DOC officers needed to
be taken seriously. Considering “the legitimate interests that stem from [the government’s] need to manage the facility in which the individual is detained”
and plaintiff’s established history of violence, we find
that, as a matter of law, defendants Captain Jemmott
and Officer Joyce used objectively reasonable force to
protect themselves from plaintiff’s threat.28 See, e.g.,

28

Furthermore, the fact that plaintiff suffered relatively
minor injuries in the course of his struggle with defendants “is
not dispositive, [but] is nonetheless highly relevant to the reasonableness of the force applied.” Johnson v. Police Officer #17969,

81a
Coleman v. Hatfield, No. 13-cv-6519 (FPG), 2016 WL
2733522, at *3 (W.D.N.Y. May 10, 2016) (dismissing
an excessive force claim where plaintiff was taken to
the floor by defendant after plaintiff “suddenly became
non-compliant . . . turned toward [defendant] and spit
out an unknown object towards [defendant].”); Smolen
v. Dildine, No. 11-cv-6434 (CJS), 2014 WL 3385209,
at *8 (W.D.N.Y. July 9, 2014) (dismissing excessive
force claim when plaintiff “seemingly began to spit”
and was subsequently held down while struggling);
Bonet v. Shaw, 669 F. Supp. 2d 300, 305 (W.D.N.Y.
2009) (holding that a use of force was justified after
inmate-plaintiff committed “the most unsavory act of
spitting in the face of one of the officers”).
C. January 16, 2013 Incident
Plaintiff asserts an excessive force claim based on
the extraction that occurred after plaintiff attempted
to smuggle contraband into prison. Plaintiff admits
that he was attempting to smuggle a bag of cheese on
the date of this incident, but disputes defendants’
assertion that he was also trying to smuggle in a
contraband weapon. Plaintiff alleges that the weapon
was planted on him by defendant Ryan. Regardless of
this factual dispute, plaintiff’s excessive force claim
cannot survive given the dipositive video footage of the
extraction of plaintiff. See Boomer v. Lanigan, No. 00CIV-5540 (DLC), 2002 WL 31413804, at *6 (S.D.N.Y.
Oct. 25, 2002) (granting summary judgment on excessive force claim when plaintiff failed to address video
evidence that force used during a cell extraction was
not excessive).

No. 99-cv-3964 (NRB), 2000 WL 1877090, at *5 (S.D.N.Y. Dec. 27,
2000).

82a
The video footage of the extraction establishes that
defendants used only force that was objectively reasonable to extract plaintiff. See Video of the Extraction
Incident. The video footage shows that: (1) plaintiff
held his hand in the cuffing port to prevent officers
from entering the extraction cell, id. at MOV001,
Timestamp 2:27-2:49; (2) defendant Ryan ordered
plaintiff to move away from his cell door but plaintiff
failed to do so, id.; and plaintiff was ordered not
to resist the extraction team but resisted them, id., at
MOV001, Timestamp 2:59-5:48. Thus, viewing “the
facts in the light depicted by the videotape,” plaintiff’s
account of the incident is irrefutably discredited by
the record that “no reasonable jury could . . . [believe]
him.” Scott v. Harris, 550 U.S. 372, 380 (2007).
Furthermore, both parties agree that plaintiff’s
injuries related to this incident were isolated to “some
bruises.” Defs.’ 56.1 Stmt. ¶ 252. Such injuries are
de minimis and insufficient to establish an excessive
force claim. See Lemmo v. McKoy, No. 08-cv-4264
(RJD), 2011 WL 843974, at *5 (E.D.N.Y. Mar. 8, 2011)
(“Injuries held to be de minimis for purposes of defeating excessive force claims include short-term pain,
swelling, and bruising . . . .”) (internal citation omitted). Accordingly, we grant defendants’ summary
judgment as to plaintiff’s excessive force claim arising
out of the January 16, 2013 incident.
D. July 16, 2013 Incident
Plaintiff’s final claim of excessive force stems from
an incident on July 16, 2013, during which plaintiff
and other inmates refused to leave the prison
recreation yard. As discussed supra, plaintiff violates
Local Rule 56.1 by asserting a blanket challenge
to defendants’ recital of the facts subsequent to the
assembly of the extraction team. This blanket chal-

83a
lenge is difficult to comprehend given that the
contemporaneous video recording of the incident
corroborates the following facts from defendants’ Rule
56.1 Statement: (1) plaintiff was crouched down on
the floor when the extraction team arrived, Video
of the Recreation Post Incident, at MOV 00154,
Timestamp 4:46-6:14; (2) plaintiff charged out the
door and towards the officers when they opened the
gate to plaintiff’s pen, id. at Timestamp 6:20-6:26;
(3) plaintiff got on top of a member of the extraction
team and remained on top of that officer for approximately 40 seconds, id. at Timestamp 6:55-7:10; and (4)
plaintiff was subsequently handcuffed 90 seconds
after he was removed from being on top of the member
of the extraction team, id. at Timestamp 7:10-8:45.
Considering the “legitimate interests that stem from
[the government’s] need to manage the facility in
which the individual is detained,” and “appropriately
deferring to policies and practices that in th[e] judgment of jail officials are needed to preserve internal
order and discipline and to maintain institutional
security,” plaintiff’s excessive force claim as to this
incident cannot survive summary judgment. Kingsley,
135 S. Ct. at 2473. The “severity of the security
problem at issue” – inmates refusing to leave the
recreation yard for approximately seven hours – necessitated the use of some amount of force to remove
plaintiff from the recreation yard. Id. No reasonable
jury could conclude that the force used to extract this
resisting plaintiff – which resulted in relatively minor
injuries including “mild abrasions,” “swelling to his
eye,” and a prescription for Tylenol – was objectively
unreasonable. See Kingsley, 135 S. Ct. at 2473 (“extent
of the plaintiff’s injury” relevant to objective reasonableness assessment); Beauvoir v. Falco, 345 F. Supp.
3d 350, 368 (S.D.N.Y. 2018) (“force that might seem

84a
unnecessary in day-to-day civilian life” does not constitute excessive force “so long as the force was tethered to the legitimate need to maintain order in prisons”); G.B. by & through T.B. v. Carrion, No. 09-cv10582 (PAC)(FM), 2012 WL 13071817, at *18 (S.D.N.Y.
Jan. 19, 2012), aff’d sub nom. G.B. ex rel. T.B. v.
Carrion, 486 F. App'x 886 (2d Cir. 2012) (constitutional protections against “excessive force do not prevent prison officials from using force in good-faith
to keep order”). Accordingly, we grant defendants’
motion for summary judgment as to plaintiff’s excessive force claim stemming from the July 16, 2013
incident.
IV. Other Federal Claims (Counts 2, 4, 11)
In support of his fourth cause of action, plaintiff
conclusorily alleges that defendants engaged in conduct that “shocks the conscience” in violation of his
substantive due process rights. AC ¶ 125-27. “[T]he
substantive due process guarantee of the Fourteenth
Amendment protects individuals from ‘conscienceshocking’ exercises of power by government actors.”
Johnson v. Newburgh Enlarged Sch. Dist., 239 F.3d
246, 252 (2d Cir. 2001). The standard to determine
what is “conscience-shocking” is not a bright line
test, but abuses of government power “intended only
to oppress or to cause injury and serve no legitimate
government purpose unquestionably shock the conscience.” Id. Having rejected plaintiff’s claims premised on his prosecution and treatment in prison under
standards either equivalent or less demanding than
the “conscience-shocking” standard, we grant defendants’ motion for summary judgment as to plaintiff’s
substantive due process claims. See Edrei v. Maguire,
892 F.3d 525, 537 (2d Cir. 2018) (holding that the
“objective reasonable” standard from Kingsley can be

85a
used to determine the viability of substantive due
process claims premised on alleged use of excessive
force); Fappiano v. City of New York, 640 Fed. Appx.
115, 118 (2d Cir. 2016) (substantive due process
claim based on denial of fair trial requires that
defendants provide “false information likely to influence a jury’s decision and forwards that information
to prosecutors” (internal citation and quotation marks
omitted)).
Having granted defendants’ motion for summary
judgment as to Counts 4, 5, and 9, there is no longer
a constitutional underpinning for plaintiff’s § 1983
claim in Count 2, as § 1983 “is not itself a source of
substantive rights, but a method for vindicating federal rights elsewhere conferred.” Baker v. McCollan,
443 U.S. 137, 145 n.3 (1979). Accordingly, we grant
summary judgment as to Count 2.
Similarly, we grant summary judgment as to Count
11 because there is no remaining constitutional claim
based on which plaintiff can assert a cause of action
for failure to intervene. See Henry-Lee v. City of New
York, 746 F. Supp. 2d 546, 566 (S.D.N.Y. 2010) (“[A]n
underlying constitutional violation is an essential
element of a failure to intercede claim under [section]
1983.”).
V. Claims against NYC (Counts 3 & 16)
“Monell does not provide a separate cause of action
for the failure by the government to train its employees.” Segal v. City of New York, 459 F.3d 207, 219
(2d Cir. 2006). Rather, Monell “extends liability to a
municipal organization where that organization's
failure to train, or the policies or customs that it has
sanctioned, led to an independent constitutional violation.” Id. Because we have found that no individual

86a
defendant committed an underlying constitutional violation, defendants’ motion for summary judgment is
granted as to plaintiff’s claims of excessive force with
respect to municipal liability (Count 3) and Monell
liability (Count 16).
VI. Supplemental Jurisdiction over State Law
Claims (Counts 4, 7, 8, 12, 13, 14, and 15)
None of plaintiff’s federal law claims survives summary judgment, and retention of the remaining state
law claims under supplemental jurisdiction is left to
the discretion of the Court. 28 U.S.C. § 1367(c)(3);
Klein & Co. Futures, Inc. v. Bd. of Trade of City of
N.Y., 464 F.3d 255, 262-63 (2d Cir. 2006). In most
cases “in which all federal-law claims are eliminated
before trial, the balance of factors to be considered
under the pendant jurisdiction doctrine — judicial
economy, convenience, fairness and comity — will
point toward declining jurisdiction over the remaining
state-law claims.” In re Merrill Lynch Ltd. Partnerships Litig., 154 F.3d 56, 61 (2d Cir. 1998). In consideration of these factors, we decline to exercise
supplemental jurisdiction over plaintiff's remaining
state law claims.
CONCLUSION
For the foregoing reasons, defendants' motion for
summary judgment is granted as to plaintiff's federal
claims. Because the Court declines to exercise supplemental jurisdiction over plaintiff's state law claims,
those claims are dismissed without prejudice. The
Clerk of Court is respectfully directed to terminate
this case and the pending motions listed at docket
entries 77, 98, and 125.
SO ORDERED.

87a
Dated: New York, New York
March 27, 2019
/s/ Naomi Reice Buchwald
NAOMI REICE BUCHWALD
UNITED STATES DISTRICT JUDGE

88a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 21st day of January,
two thousand twenty-one.
————
Docket No: 19-1163
————
JARRETT FROST,
Plaintiff-Appellant,
v.
NEW YORK CITY POLICE DEPARTMENT, NEW YORK
CITY DEPARTMENT OF CORRECTION, THE CITY OF
NEW YORK, DISTRICT ATTORNEY ROBERT T. JOHNSON,
DISTRICT ATTORNEY ROBERT HERTZ, DETECTIVE
MICHAEL LOPUZZO, DETECTIVE RICHARD SPENNICCHIA,
DETECTIVE JOSEPH O’NEIL, CORRECTION OFFICER
TORRES, CORRECTION OFFICER SORIA, CORRECTION
OFFICER CARTY, CORRECTION OFFICER SOUFFRANT,
CORRECTION OFFICER TATULLI, CORRECTION OFFICER
CAPTAIN MCDUFFIE, CORRECTION OFFICER PREVILLON,
CORRECTION OFFICER GONZALEZ, CORRECTION
OFFICER CAPTAIN RYAN, CORRECTION OFFICER YOUNG,
CORRECTION OFFICER MCLAUGHLIN, CORRECTION
OFFICER BARKSDALE, CORRECTION OFFICER CORKER,
CORRECTION OFFICER SANCHEZ, CORRECTION OFFICER
HILL, CORRECTION OFFICER CAPTAIN CLAYTON
JEMMOTT, CORRECTION OFFICER JAY JOYE,
Defendants-Appellees,

89a
DETECTIVES JOHN DOE #1–4, Individually and
in Their Official Capacity as New York City Police
Officers, CORRECTION OFFICERS JOHN DOE #1–5,
Individually and in Their Official Capacity as
New York City Correction Officers,
CORRECTION OFFICER THOMAS,
Defendants.
————
ORDER
Appellees filed a petition for panel rehearing, or, in
the alternative, for rehearing en banc. The panel that
determined the appeal has considered the request for
panel rehearing, and the active members of the Court
have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe
[SEAL]

